<html>
<title> - LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-398
 
            LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

=======================================================================

                             JOINT HEARING

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                               BEFORE THE

                 UNITED STATES HOUSE OF REPRESENTATIVES

                                AND THE

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2019

                               __________

      Formatted for the use of the Committee on Veterans' Affairs
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-887PDF             WASHINGTON : 2021 
        
        
        
        
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Bill Cassidy, Louisiana              Patty Murray, Washington
Mike Rounds, South Dakota            Bernard Sanders, Vermont
Thom Tillis, North Carolina          Sherrod Brown, Ohio
Dan Sullivan, Alaska                 Richard Blumenthal, Connecticut
Marsha Blackburn, Tennessee          Mazie K. Hirono, Hawaii
Kevin Cramer, North Dakota           Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona
                       Adam Reece, Staff Director
                Tony McClain, Democratic Staff Director

        HOUSE OF REPRESENTATIVES COMMITTEE ON VETERANS' AFFAIRS

                   Mark Takano, California, Chairman

Julia Brownley, California           Dr. Phil Roe, Tennessee, Ranking 
Kathleen Rice, New York                  Member
Conor Lamb, Pennsylvania             Gus M. Bilirakis, Florida
Mike Levin, California               Amata C. Radewagen, American Samoa
Anthony Brindisi, New York           Mike Bost, Illinois
Max Rose, New York                   Dr. Neal Dunn, Florida
Chris Pappas, New Hampshire          Jack Bergman, Michigan
Elaine Luria, Virginia               Jim Banks, Indiana
Susie Lee, Nevada                    Andy Barr, Kentucky
Joe Cunningham, South Carolina       Dan Meuser, Pennsylvania
Gil Cisneros, California             Steve Watkins, Kansas
Collin Peterson, Minnesota           Chip Roy, Texas
Gregorio Kilili Camacho              Greg Steube, Florida
    Sablan,Northern Mariana Islands
Colin Allred, Texas
Lauren Underwood, Illinois

                       Ray Kelley, Staff Director
                 John Towers, Republican Staff Director
                 
                            C O N T E N T S

                              ----------                              

                           February 27, 2019
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     3
Tester, Hon. John, Ranking Member, U.S. Senator from Montana.....     4
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    15
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    22
Boozman, Hon. John, U.S. Senator from Arkansas...................    26
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    29
Moran, Hon. Jerry, U.S. Senator from Kansas......................    32
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    34
Sanders, Hon. Bernie, U.S. Senator from Vermont..................    36
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    39

                            REPRESENTATIVES

Takano, Hon. Mark, Chairman, U.S. Representative from Montana....     1
Roe, Hon. Phil, Ranking Member, U.S. Representative from 
  Tennessee......................................................     5
Cisneros, Hon. Gil, U.S. Representative from California..........    14
Underwood, Hon. Lauren, U.S. Representative from Illinois........    17
Bergman, Hon. Jack, U.S. Representative from Michigan............    19
Levin, Hon. Mike, U.S. Representative from California............    21
Browley, Hon. Julia, U.S. Representative from California.........    24
Pappas, Hon. Chris, U.S. Representative from New Hampshire.......    31
Allred, Hon. Colin, U.S. Representative from Texas...............    41

                               WITNESSES

Statement of Higgins, Hon. Clay, U.S. Representative from 
  Louisiana......................................................     8
Reistad, Brett P., National Commander, The American Legion 
    Accompanied by: Fisher, Randall, Chairman, National 
    Legislative Commission Sharpe, Joseph, Director Veterans 
    Employment and Education Division Nuntavong, Chanin, 
    Director, National Veterans Affairs and Rehabilitation 
    Division Shuman, Matthew, National Legislative, Director 
    Bozella, Ralph, Chairman, Veterans Affairs and Rehabilitation 
    Commission Troiola, Vincent, Chairman, Veterans Employment 
    and Education Commission                                          9

                                APPENDIX

The American Legion Legislative Agenda submitted by Reistad, 
  Brett P., American Legion National Commander...................    50


            LEGISLATIVE PRESENTATION OF THE AMERICAN LEGION

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2019

                      United States Senate,
                      and House of Representatives,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committees met, pursuant to notice, at 10:00 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Johnny 
Isakson and Hon. Mark Takano, presiding.
    Senators Present: Isakson, Moran, Boozman, Cassidy, Rounds, 
Tillis, Sullivan, Blackburn, Tester, Sanders, Brown, 
Blumenthal, Hirono, and Manchin.
    Representatives Present: Takano, Brownley, Lamb, Levin, 
Rose, Brindisi, Cisneros, Lee, Underwood, Cunningham, Pappas, 
Allred, Roe, Bilirakis, Bost, Bergman, Banks, and Meuser.

              OPENING STATEMENT OF CHAIRMAN TAKANO

    Chairman Takano. Good morning. The Joint Hearing to Receive 
the Legislative Presentation of the American Legion is now 
called to order. I will begin with my opening statement.
    Good morning, Commander Reistad, and welcome to everyone in 
the House and Senate Joint Hearing to Receive the Legislative 
Presentation of the American Legion. I am honored to be here 
with Chairman Isakson and Senator Tester and Ranking Member 
Roe, and all members of the House and Senate Committees on 
Veterans' Affairs.
    First I would like to thank Commander Reistad for being 
here today and welcome every Legionnaire here today and those 
who could not join us in person but are watching from home.
    Commander, I want to begin by recognizing the tireless 
advocates who work every day on behalf of the American Legion. 
We rely on the American Legion in our districts and
    states back home, and here in Washington, D.C., to be the 
voice for the millions of veterans you represent throughout the 
country.
    I would also like to specifically recognize members from my 
own home state of California. Are you in the house?
    [Cheers.]
    All right. All right. California American Legion Boys State 
right here. Thank you.
    [Applause.]
    And, by the way, I just like to add, now more than ever we 
benefit from the civics lessons that are taught through 
American Legion Boys State and Girls State, and I know that the 
tremendous volunteer effort through the auxiliary and your 
membership, what it takes to stage those Boys State and Girls 
State events throughout the country. And America certain 
benefits from having that civics education and leadership 
development that you provide.
    For 100 years--and I realize that last year was your 100th 
year anniversary since your founding, and a very poignant 
founding since the World War I and such a consequential war for 
the world and our country--members of your organization have 
been on the front lines as a strong voice on Capitol Hill 
ensuring Congress fulfills its promise to veterans. We look to 
you to guide our work and to hold us accountable to the 
veterans and their families. You make sure the work we 
undertake is done in the best interest of veterans. And with 
your help, we have seen a lot of successes over the years, and 
we will need your continued input as we move through the 116th 
Congress.
    Reading through your testimony I want to say that your 
concerns are my concerns. This afternoon, the House Committee 
on Veterans' Affairs will have Secretary Wilkie testifying on 
the state of the VA and what needs to be done to achieve our 
vision for VA through the year 2030. Our VA 2030 plan is 
simple. It is a future look at what we envision as the ideal 
VA, a system worth saving for all veterans, no matter the 
generation or conflict in which they served. That starts with 
getting implementation of the Mission Act right so veterans can 
access care at VA hospitals and clinics and with community 
providers.
    I hold with your similar concerns regarding hiring and 
retention. We must continue to find constructive ways to bring 
the best and brightest to VA once they are there, and once they 
are there we need to keep them.
    Keeping pace with the fastest-growing population of 
veterans is crucial. Women veterans need to know that VA is for 
them.
    We agree with your assessment that no veteran should have 
to choose between caring for a child and receiving health care, 
and we are proud to report that the House passed the Veterans 
Access to Child Care Act just a few weeks ago so that veterans 
who are parents to young children can see their VA provider 
without having to worry about finding and affording child care, 
and thank you, Julia Brownley, for your bill. Thank you.
    [Applause.]
    And I want just as much acknowledgment for our Republican 
colleagues because this bill passed with 400 votes in the 
House, and I do not want to pass over the hard work of my 
Ranking Member, Phil Roe. Thank you, Phil, for your work on 
that bill as well.
    [Applause.]
    And I know and trust that Senator Isakson will burst this 
through the Senate in no time, in zero seconds flat. Right, 
Senator?
    Chairman Isakson. Zero.
    Chairman Takano. Zero. We know how fast they work over 
there in the Senate.
    And we will continue to work with you to advance benefits 
to all Vietnam veterans serving on land and sea, especially 
those exposed to Agent Orange. We will double our efforts to 
end homelessness and strive to find and care for every veteran 
who may contemplating suicide.
    And while I just touched on a few of the issue areas that 
are important to you and your membership, know that I am 
committed to helping advance your priorities in the coming 
year. I look forward to hearing your testimony today, and thank 
you again for your tireless advocacy of the veteran community.
    And with that I now recognize Chairman Isakson for his 
opening statement.

             OPENING STATEMENT OF CHAIRMAN ISAKSON

    Chairman Isakson. Thank you very much, Chairman Takano, and 
congratulations to rising to Chair of the House
    Committee on Veterans' Affairs, and to Phil Roe, I want to 
tell you what a great pleasure and privilege it was for me to 
work with you for four years as your chairmanship in the House. 
I appreciate the things you did to support us. We have been a 
great team for the VA for the last four years. Jon Tester, who 
is my Ranking Member in the Senate, is my partner. We are not 
adversaries. We are not in different parties. We are Americans, 
just like our soldiers are on the battlefield. We recognize 
heroism not by party.
    [Applause.]
    And we particularly appreciate all you are doing.
    I have to tell you, I want to thank you and Mr. Reistad, 
Commander, and the others for the four corners Fireside Chat 
that we celebrated two days ago with you at the Washington 
Hilton.
    [Applause.]
    That was a great way for us to be able to talk you in a 
setting that is much better than standing up at a podium and 
speaking, which ends up being a lecture and that is not any fun 
for anybody. But to sit there in a nice overly soft chair, I 
might add for an hour, and stay awake and be cogent, that is a 
good challenge for old men anytime, so we are glad to do it.
    I want to congratulate you on your 100th anniversary. I 
mean, that is a great milestone. My wife and I celebrated our 
50th wedding anniversary last year. I know what big 
anniversaries mean. I hope I make 200 on that, but if I do not, 
I am glad you all made it to 100 in terms of the American 
Legion. I appreciate very much your organization and what you 
mean to all of us.
    We have a big agenda this year and our agenda in the 
Senate, from my standpoint--and I think it is shared by all--is 
to see to it that all the things we did the last three or four 
years--the new GI Bill, the accountability bill, the appeals 
bill, the Whistleblower Act--all of the things that we did, now 
is the time to see to it they are in place and working. You do 
not want to go pile a whole lot of new stuff on somebody until 
they swallow what you have just given them, and we just gave 
them a lot to swallow.
    My last conversation before I came in here was with Mr. 
Wilkie, who is going to see you this afternoon, hobbling in on 
his bad Achilles' heel, so do not give him too much trouble. He 
is in agony, in pain. Any of you who have had an Achilles 
problem know that is not comfortable. But he is a great leader 
at the VA and we appreciate him very much.
    And I have told him we will share the same commitment to 
all of you. We will do everything we can to make the promises 
that we made reality, make them reality as fast as possible. We 
will make mistakes, but there are a couple of mistakes we will 
not make. One, we are not going to make the mistake of 
privatizing the VA. I can guarantee you that. We are not going 
to do that.
    [Applause.]
    But we are going to see that we empower the private sector 
to be a force multiplier for the VA so people can have timely 
appointments, the best of care that is available in the United 
States of America goes to our veterans, and we will not stop 
until we get that done for everybody. It is important that we 
make sure the VA, all the things we have bragged about for two 
years, become a reality that you expect every day when you go 
to the VA.
    We appreciate the people who volunteered and fought for 
this country, risked their life for this country, and stand for 
this country to support it. When you come to Washington to 
advocate for the American Legion, there are a lot of things you 
could do. But you are not just advocating for yourself. You are 
advocating for all those who went before you, in the military, 
in service to the country.
    So thank you for what you have done, thank you for being 
here today, and thank you for being part of the greatest 
country on the face of this Earth, the United States of 
America.
    Mr. Chairman, I yield back.
    [Applause.]
    Chairman Takano. Thank you. Thank you, Chairman Isakson. 
And I now yield to the Ranking Member of the Senate Veterans' 
Affairs Committee, Senator Tester from Montana.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Chairman Takano, and thank you 
for being here.
    Commander Reistad, let us see. I saw you on Monday and I 
saw you on Tuesday. Hell, I see you every day, more than I have 
got fingers to count with. So it is great to have you hear 
today.
    Look, I have enjoyed working with you and your legislative 
staff and great Legionnaires like Mike Shepard, Cliff Larson, 
Bill White in Montana. You guys have been great and I want to 
thank you for your leadership, Commander Reistad, as the 
American Legion is here before us, because we have accomplished 
a lot but we still have a lot to do.
    As I have said before, as I said Monday, and I think I said 
it again yesterday, Congress needs to take its cues from you. 
You know better than anyone how VA is performing across this 
country. You know what improvements should be made on behalf 
veterans and their families. Your members are beneficiaries of 
the VA health care and utilize VA programs every day. Listening 
to veterans should not be a courtesy from the VA. It should be 
mandatory.
    Commander, we need to hear your view on gender disparities 
at the VA, what can be done to provide more equitable treatment 
for our women veterans; on whether the VA is doing enough to 
address the unacceptable rate of veteran suicides; on 
implementation of the Harry Colmery Act, a law which builds 
upon 75 years of the GI Bill and American Legion history.
    But most importantly today, we need to know whether you 
believe the implementation of the VA Mission Act, the largest 
overhaul of veterans health care in a generation, is being 
carried out as Congress intended, and more importantly, as 
veterans deserve. There is very real concern from the veterans 
community and Congress that the recently proposed access 
standards will steer a disproportionate amount of veterans and 
taxpayer dollars to the private section.
    And despite language in the Mission Act, it is clear that 
the VA does not intend on holding community providers to the 
same standards as VA providers. We need to make sure that does 
not happen. So we will end up sending more veterans into the 
communities for lower-quality care while being unable to ensure 
they get it done in a timely manner. These are all challenges 
but challenges that we can fix.
    To top it off, nobody can tell us how many veterans will 
ultimately be impacted by these access or standards, or how 
much it will cost. All we know is that community care is more 
expensive than VA care and that billions have been paid to 
third-party administrators that should have gone directly to 
improving the lives of veterans across this country.
    VA refers to concerns about the hollowing-out of the VA 
care is false and predictable, but everyone in this room, I 
believe, knows that they are real. Veterans deserve more than 
that. They deserve the truth and they deserve a system that 
will work, a system that is built and improved with the input 
from the American Legion and others.
    Commander Reistad, it is great to have you here today. We 
need to keep meeting like this, quite frankly. And I want to 
welcome you and I want to welcome everybody you represent on 
behalf of the American Legion, their families, and the veterans 
you serve. Thank you.
    [Applause.]
    I would now like to--thank you, Ranking Member Tester, and 
now I would like to recognize my colleague on the House side, 
the Ranking Member, Dr. Phil Roe. You are now recognized for 
your opening statement.

                  OPENING STATEMENT OF DR. ROE

    Dr. Roe. Thank you, Mr. Chairman, and I also want to 
associate my comments with Senator Isakson. In the last two 
years we were able to accomplish a lot of great things for our 
veterans, and it would not have happened without the leadership 
up here. And I said this yesterday. One of the reasons I do not 
think this is going to be as long a meeting as some of them are 
is that Tim Walz, who you all know, who is now Governor of 
Minnesota, used to bring either one or two 20-ounce Mountain 
Dews. So this is not a two-20-ounce Mountain Dew hearing, I 
hope.
    Commander Reistad, to you and all your members of the 
American Legion and the American Legion Auxiliary and Sons of 
the American Legion who are with us today--and I want to thank 
the auxiliary members. And I said this yesterday. You know, I 
was deployed, and when we get deployed we forget about the 
responsibilities we leave the family. We have a mission and we 
go accomplish that mission. But there is another mission too, 
and that is to keep your family together, to look after your 
family, and all the things at home. So thank you, auxiliary 
members, for being our wingman and our backup. Thank you very 
much for that.
    [Applause.]
    It is an honor for me to be here today, and if there are 
any Legionnaires--I think there are--my fellow Tennesseans, 
would you please stand up and be recognized, or hold your hand 
up, either one, if you are here?
    Yep, there they are in the back. Thank you, guys.
    [Applause.]
    I know from personal experience the commitment to country 
and to service that the American Legion members exemplify in 
communities, including mine, across this great nation. I also 
know, from personal experience, that the leadership that the 
American Legion's top-notch executive and legislative team 
exemplify are right here in our nation's capital.
    Last Congress saw a record number of transformative pieces 
of legislation signed into law to reform the Department of 
Veterans Affairs in both large and small ways, and that would 
not have been possible without the dedication, partnership, and 
support of the American Legion. And one of the things that I 
did as I began to work through this was that you all--and we 
did not always agree, as you well know--but we came in and 
worked these differences out. It was a model for how 
legislation could go. You have a different viewpoint than I 
might have, we got in a room and worked out those differences, 
and I think we can all be proud of what we did.
    I look forward to continuing the collaboration with you, 
Commander Reistad, to ensure that the legislation we worked so 
hard to see signed into law is implemented as we intended, and 
serves to further our common mission to uphold President 
Lincoln's promise to care for those who have borne the battle.
    Last week the Veterans Appeals and Improvement and 
Modernization Act, or AMA, went live. The AMA completely 
revamped the way disability claims and appeals are processed at 
the VA and critically gives the veterans greater choice and 
control over how their appeal is handled at the VA.
    Let me give you just a personal story. About a month ago I 
was in Nashville. I went to the RO, went to the VA hospital 
there. On the way out the door I met, I think, an eight-year 
Marine reservist who served in the '70s. He did not go to 
Vietnam but he served in the '70s. He had tried for seven years 
to get his claim done. He had decided to go with the RAMP 
program. In 90 days he had what took seven years. I mean, this 
man was grinning from ear to ear. He could be a poster child, 
and I hope it works that way for many other veterans. I was 
really pleased when I just bumped into him sort of accidentally 
there at the VA.
    As you know, another thing very near and dear to my heart, 
and I know to yours as well, is the fight for our Blue Water 
Navy veterans. I have carried that fight for almost 10 years. I 
want to get that done, get that off, and treat these veterans 
the same as very other veteran that has served in Vietnam was. 
So I would appreciate your help with that.
    [Applause.]
    And I know Senator Isakson and Senator Tester, they were 
great partners with this and worked very hard to get that done, 
and I feel confident that I know Chairman Takano is ready to 
get it done also, and we both already dropped legislation for 
that.
    Another top priority of mine, as others have said, is 
effective and ongoing oversight of the VA Mission Act. The 
Mission Act is a wide-ranging piece of legislation, and when it 
was enacted it impacted virtually every facet of the VA health 
care system and increased access to high-quality care in VA 
medical facilities in the community and via telehealth. It 
resulted in a VA health care system that is stronger, that are 
able to care for veterans and their caregivers both today and 
for generations to come, and this will not privatize the VA.
    That said, a law as transformative as the Mission Act does 
not come with an instruction manual, and I anticipate there 
will be some stumbling blocks and struggles in the weeks and 
months ahead that will once again require our effort to 
overcome.
    I remain committed to that process and to keeping my door 
open to the American Legion throughout the process. I will also 
continue to hold Secretary Wilkie's feet to the fire with 
regard to the implementation of the Harry W. Colmery Veterans 
Education Assistance Act of 2017, until I am confident that 
every veteran has received the benefits of which they are 
entitled and the implementation of the Department of Veterans 
Affairs Accountability and Whistleblower Protect Act of 2017, 
until I am confident that the VA is appropriately adjudicating 
allegations of misconduct or poor performance and treating 
whistleblowers with respect and seriousness that they are 
entitled.
    Last, but certainly not least, I am committed to closing--
closely overseeing the electronic health record modernization. 
Greater information technology support generally, and improved 
coordination between VA and DoD, particularly, are a key to 
VA's future on every front.
    Also, I know that the Chairman is very much committed to 
this, is to work on our homeless veterans and suicide. I know 
that is very near and dear to the Legion. I know that is one of 
your top priorities. I commend Chairman Takano for attaining 
the Technology and Modernization Subcommittee that we 
established last Congress and I look forward to significant 
work this Congress to address VA's technology needs.
    Commander Reistad, we should all be extremely proud of the 
work that we have accomplished together in the last two years. 
However, as you can see, we still have a lot of work ahead of 
us. And I am glad that you and your fellow Legionnaires are 
steadfast partners in that work, and thank you once again for 
being with us here in Washington this morning, and all the 
Legionnaires that are here. I look forward to receiving your 
testimony and I yield back my time.
    Chairman Takano. Thank you, Ranking Member Roe.
    Let me just say a few words about the Commander before I 
introduce--before I accord him the time to give his opening 
statement.
    Brett P. Reistad was elected National Commander of the 
American Legion on August 30, 2018, in Minneapolis, during the 
organization's 100th national convention, and I was very 
honored to actually be able to address that convention myself, 
in Minneapolis.
    He has been a member of the nation's largest veterans' 
organization since 1981. He is former law enforcement. He 
retired as a lieutenant with the Fairfax County Police 
Department after 26 years of service--my goodness; 
congratulations on that--and began a second career as a law 
enforcement services coordinator for the Regional Organized 
Crime Information Center of the Regional Information Sharing 
Systems Program, a congressionally funded law enforcement 
investigative assistance program.
    The Commander's American Legion membership eligibility is 
through his honorable Vietnam War-era service, from 1974 to 
1978, as an active duty U.S. Army infantryman, where he served 
with the Presidential Salute Battery of the 3rd U.S. Infantry 
Regiment, the Old Guard, at historic Fort Myer, Virginia. He 
participated in the inaugural ceremony for President Carter and 
other high-profile ceremonies, and he has since been honored as 
a Distinguished Member of The Regiment.
    Commander, we are very honored to have you here today, and 
I now give you time to present your opening statement.
    Oh, excuse me. Okay. Commander, we will need just to hold 
off here. I made that introduction because I was not 
anticipating that the gentleman from Louisiana would be here to 
introduce you himself. So I want to make sure that I accord him 
time.
    Mr. Clay Higgins, the gentleman from Louisiana, you are 
recognized to introduce the commander.

                 STATEMENT OF HON. CLAY HIGGINS

    Mr. Higgins. Mr. Chairman, Mr. Ranking Member, thank you 
for this gathering today. The commander I sit next to is a 
great and humble servant of his nation, and by extension all 
our fellow men. I thank him.
    And, Mr. Chairman, as a former member of the House 
Veterans' Affairs Committee it is my honor to join you this 
morning and my great privilege to introduce our guest of honor, 
the National Commander of the American Legion, Mr. Brett P. 
Reistad.
    I have had the opportunity to get to know Mr. Reistad over 
the past few years, and as a fellow Army soldier and law 
enforcement officer I was pleased to hear of his election to 
the position of National Commander at the American Legion's 
100th annual convention last August.
    Mr. Reistad is a patriot American of the highest order. As 
a young man, he served his country with honor, and as an 
infantryman in our nation was engaged in the Vietnam War, a 
true servant of the people. Mr. Reistad stayed in uniform after 
his Army service ended, becoming a police officer in Fairfax 
County, Virginia, and retiring at the rank of lieutenant after 
26 years of service.
    Mr. Reistad's service and dedication to our men and women 
in uniform is evident in his exceptional leadership at the 
American Legion. Having joined the organization in 1981, he 
rose to the ranks, serving at every level of the American 
Legion, becoming commander of Post 270 in McLean, Virginia, and 
eventually Department Commander for the Commonwealth of 
Virginia in 2005, where membership reached an all-time high.
    He recently completed his second term as gubernatorial 
appointee to the Commonwealth of Virginia's Joint Leadership 
Council of Veteran Service Organizations, where he helped 
coordinate the input of 23 VSOs in crafting legislation on 
behalf of our veterans.
    The American Legion is among the nation's largest wartime 
veteran service organization, recognized as the nation's 
largest wartime veteran service organization. With 12,806 posts 
in communities from sea to shining sea, members advocate 
patriotism and honor and promote national security and 
continued devotion to all those who served. As the organization 
celebrates its centennial and storied past, Mr. Reistad has 
emphasized the theme of celebrating our legacy and remains 
committed to carrying out his duties on behalf of our veterans, 
men and women in uniform, and their families.
    I am proud of the job he has done, excited to see what he 
will continue to do, and proud to call him a friend.
    [Applause.]
    Chairman Takano. Commander, you are now recognized to 
deliver--to present your opening statement.

                 STATEMENT OF BRETT P. REISTAD

  THE AMERICAN LEGION; ACCOMPANIED BY JOSEPH SHARPE, VINCENT 
 TROIOLA, MATTHEW SHUMAN, CHANIN NUNTAVONG, RALPH BOZELLA, AND 
                         RANDALL FISHER

    Mr. Reistad. Thank you, Mr. Chairman. It is great to see 
all of you here.
    Before I begin my opening statement I would first like to 
introduce a few critical members of the American Legion family. 
I ask the following people to please stand, if able, and be 
recognized, the American Legion national officers who were 
serving with me this year.
    [Applause.]
    Our distinguished American Legion Past National Commanders.
    [Applause.]
    Kathy Dugan, president of the nation's largest patriotic 
women's organization, the American Legion Auxiliary.
    [Applause.]
    Past national presidents of the American Legion Auxiliary.
    [Applause.]
    Greg Gibbs, National Commander of the Sons of the American 
Legion.
    [Applause.]
    Past National Commanders of the Sons of the American 
Legion.
    [Applause.]
    And for the rest of us, we are----
    Multiple Speakers. --Team 100.
    Mr. Reistad. Thank you.
    [Applause.]
    Mr. Reistad. Good morning, Chairman Takano, Chairman 
Isakson, Ranking Members Tester and Roe, members of the House 
and Senate Committees on Veterans' Affairs, and distinguished 
others among us. Thank you for the opportunity to discuss the 
American Legion's legislative priorities with you.
    I also would like to thank Congressman Higgins, a former 
member of this Committee, for his kind introduction, for his 
military and law enforcement service, and for being a member of 
the American Legion.
    During the last Congress, these two committees played a 
pivotal role in the passage of the most significant veterans' 
health care legislation in many years, the VA Mission Act. It 
was aptly titled. While there is still much work to be done 
regarding implementation, let me tell you about our mission.
    Mission is a word that we take very seriously, something 
that has been forged into us since our first day of military 
training. It is an inner fortitude that tells us that no matter 
what it takes, we will accomplish the task at hand. It is 
synonymous with being a veteran. We have seen this clearly 
demonstrated by the men and women of the U.S. Coast Guard, who 
despite its stoppage of pay continued to deploy more than 2,000 
members a day at sea and ashore. Yet they were treated 
differently than their DoD counterparts. Pay uncertainty is 
difficult for everyone impacted, but especially those who, by 
contact, are required to continue working and risking their 
lives in an occupation that provides, at best, modest pay.
    The American Legion did not fall short of our mission in 
January when, in just a two-week period, we provided more than 
$1 million of financial assistance to Coast Guard families with 
young children.
    [Applause.]
    It is times like this, Mr. Chairman, when it is not about 
what we did but rather what we do. This is where we hope 
Congress and the administration can live up to its 
constitutionally mandated mission to support our military. 
Whether it is through the Pay Our Coast Guard Act or advanced 
appropriations for Coast Guard payroll, we should all abide by 
the Semper Paratus motto, "Always prepared."
    Another special population that takes its mission seriously 
is our nation's law enforcement officers. Last year, 150 of 
these heroes died in the line of duty, protecting and serving 
our communities. It is not surprising that many military 
veterans continue to serve their country through careers in law 
enforcement. Service before self, even to the point of 
sacrificing one's life, if necessary, is just one of the many 
commonalities shared between military members and first 
responders.
    From an epidemic of opioids to criminal gang activity and 
domestic terrorism the life of a law enforcement officer is 
fraught with danger. We ask Congress to always consider how 
legislation impacts members of these special communities.
    Further, there are many constituencies that deserve our 
support but none more so than Gold Star families. I am proud to 
announce that the American Legion has recently created a full-
time staff position dedicated to advocating for the needs of 
these families whose loss is immeasurable.
    Again, Mr. Chairman, it is not about what we did but rather 
what we do. President Lincoln referred to this loss as, "so 
costly a sacrifice upon the altar of freedom." And perhaps 
nothing is more important than preventing the number of Gold 
Star families from growing.
    That said, not all of America's war casualties come from 
enemy bullets. In 2017, the VA reported that the suicide rate 
among 18- to 24-year-old male Iraq or Afghanistan U.S. war 
veterans had risen fivefold. For 18- to 29-year-old female 
veterans the suicide rate doubled. We also know that PTSD, TBI, 
and feelings of a loss of purpose or belonging are frequently 
found among those who attempt such tragic and permanent 
endings.
    These feelings and conditions are either preventable or 
treatable. It must be the mission of every Legionnaire, every 
veteran, every employee of the DoD and VA, and I might add 
every Member of Congress, to stop such national tragedies. 
Simply put, access to timely treatment and quality health care 
saves lives.
    In 2017, the American Legion commissioned a report that 
confirmed what we already suspected. VA performs as well or 
better than its private sector counterparts in areas such as 
patient safety, patient satisfaction, care coordination, and 
innovative medical practices. But we do recognize that 
geography and specialty care sometimes means the VA is not 
always the best option for patients. We support the 
administration's recent announcement that access to veterans' 
health care providers should be based on actual drive times as 
opposed to straight-line mileage. Moreover, we agree that 
veterans should not have to wait more than 20 days for primary 
care or 28 days for specialty care. The American Legion does 
not oppose Choice but we adamantly oppose any plan that would 
gut the best health care system in the country.
    The central fact remains that nobody understands the unique 
health care needs of the veteran population better than the 
professionals at the VA. Further, the VA Mission Act must live 
up to its mission of serving veterans as opposed to serving 
private health care providers.
    To varying degrees, anyone who has personally assisted a 
close family member through sickness or serious medical 
conditions understands the challenges facing caregivers. I 
know. I, too, have experienced this. We welcome the recent 
expansion of the VA Family Caregiver Program to equalize 
benefits so that family members providing care for Vietnam and 
other veterans are on par with those who provide it for members 
of the post-9/11 generation.
    However, gaps still exist. Regardless of when a veteran 
served, even if it was during a period of peace, caregivers 
still face the same challenges. They sacrifice career, time 
with others, and often their own health care needs to care for 
their loved one. The American Legion has always believed that a 
veteran is a veteran. Our gratitude for their service should 
not be measured by arbitrary date but rather by the simple fact 
that they swore an oath to defend our nation. It is time that 
loved ones who are providing care for their veterans achieve 
equality.
    And there is another area of equality that the American 
Legion would like to see addressed. A century ago, our 
organization was chartered by Congress to serve as the leading 
voice for the veterans of the Great War. The thinking at the 
time was that World War I was so horrendous, that it was the 
war to end all wars. As we all know, history proved that it was 
not. Even so, our charter was updated during World War II to 
reflect the service and sacrifice of that era.
    Subsequently, our charter and membership eligibility have 
mirrored the eras officially recognized by the U.S. government 
to include the wars and conflicts such as Korea, Vietnam, and 
the global war on terror. However, these recognized periods 
fail to take into account the hostilities that occur between 
official eras in which nearly 1,600 U.S. military personnel 
were either killed or wounded, in places like Cuba, Iran, and 
El Salvador.
    Because of these frequent engagements, the American Legion 
calls on Congress to declare what has demonstrably already 
occurred, that the United States has been continually engaged 
in a state of war from December 7, 1941, until such a date in 
the future that our government may declare an end to all armed 
hostilities.
    Congress can provide this recognition by supporting and 
passing Senate Bill 504, or the Legion Act. The Legion Act will 
authorize the American Legion to expand our membership 
eligibility requirements. We sincerely thank Senator Kyrsten 
Sinema of Arizona for making this the first bill she introduced 
as a member of the United States Senate. We also thank Senator 
Thom Tillis of North Carolina for joining Senator Sinema in 
introducing this bipartisan legislation. The veterans that the 
Legion Act will recognize have carried out their missions. Now 
it is our turn.
    In 16 days, the American Legion will officially turn 100 
years old. You have heard me discuss mission quite a bit this 
morning. That is because the founders of our organization had a 
post-war mission. Their mission, one that continues today, was 
to care for veterans, provide patriotic youth programs, 
advocate for a strong national defense, and instill pride about 
what it means to be American. It is not just what the American 
Legion did. It is what we do.
    It is tempting to say "mission accomplished," but that 
implies that our work is done. It is not. So I prefer to say 
"mission still being accomplished" and I invite all Members of 
Congress to join us in a mission to make a better America.
    Chairman Takano, Chairman Isakson, Ranking Members Tester 
and Roe, and members of the critical committees, thank you for 
holding this hearing, thank you for all that you do for our 
nation's veterans and families, and thanks also to your amazing 
and talented staff.
    Mr. Chairman, I would happily answer any questions you may 
have, but I would like to let you know that I am blessed to 
have sitting with me some subject matter experts who are 
available, and in the event that they can answer a question 
better than I can I will defer to them, with your permission.
    Chairman Takano. Thank you.
    [Applause.]
    Chairman Takano. Thank you, Commander, for your testimony. 
We will now begin with questions from the Chairman and then 
Ranking Members and then members from the Committee in the 
order of arrival.
    I would like to begin by recognizing my colleague from the 
Senate, Chairman Isakson, for five minutes.

                    CHAIRMAN JOHNNY ISAKSON

    Chairman Isakson. Thank you very much, Mr. Chairman. I 
appreciate the opportunity and I again want to thank the Legion 
for the Fireside Chat that we did on Monday, which was so 
effective of a way for us to communicate and get to talk to so 
many of your members. Congratulations again on your 100th 
anniversary. And for my benefit and my humoring, all the 
Georgia Legionnaires please stand.
    [Applause.]
    We are all on the same team and we are all in the same rank 
when it comes to being Americans and to being Legionnaires and 
to being veterans of the United States military, but we are 
always glad to have the Georgia veterans here. Congratulations 
on being here today.
    I only have one--I am not going to ask a big question. I am 
going to kind of make more of a statement because I think it is 
important that I repeat myself in the remarks I made first of 
all.
    Commander, do you have a successor here? Do you all have a 
line of succession for commanders?
    Mr. Reistad. Sir, we do have candidates that are following. 
So there is a leading candidate for National Commander that is 
behind me.
    Chairman Isakson. Is there a leading candidate--who is that 
person?
    Mr. Reistad. That person can stand. It is Bill Oxford of 
North Carolina.
    Chairman Isakson. Good.
    [Applause.]
    I want to tell you why I am doing this. This is really 
important. Mr. Oxford, and to yourself, Commander, your terms 
are two years or one?
    Mr. Reistad. One year, sir.
    Chairman Isakson. Over the next 24 months the future of the 
VA's health care services and operation depends on our 
supporting the changes in the Mission Act, the implementation 
of the Mission Act, and holding everyone accountable, us, in 
Congress, the physicians and nurses and assistants in the VA, 
and the VA administration itself.
    So I want to tell everybody in a leadership position, 
either on these committees or in your organization, the Legion, 
nothing we have done is going to work unless you help us make 
it work. We are going to have to give the VA some time and some 
latitude to make a few mistakes. But as long as they are making 
mistakes of the heart, making mistakes trying to do better, 
that is fine. But when they make mistakes we want to call them 
out, have them correct them, and then support them for the 
changes they made.
    I fear sometimes that bureaucracies wait for elected 
officials' terms to expire. So, in other words, once I am in 
office, I am in office for six years, as a Senator. When they 
go to work for the VA, unless they do something really bad, 
they are there for life. So they can outwait me. I do not want 
that to happen. We cannot afford to spend a day waiting for the 
promise of the improved appeals process, accountability 
process, positions of the numbers sufficient to have VA health 
care reach every veteran in the country. We need all these 
things to become reality and not just promises.
    I am pledging my part to support that. I know the members 
of the Committees will pledge that. And if you, Mr. Oxford, and 
you, Commander, will see that starts in the chain of command in 
your organizations, a few years from now we will look back on 
this being one of the great times of all for the VA and for 
veterans in America.
    Thank you all for your service.
    [Applause.]
    Mr. Reistad. Thank you, sir.
    Chairman Takano. Thank you, Senator Isakson. I will-- both 
Senator Tester and I will take our question time later. But I 
want to now move to recognize a member of the House Committee, 
Mr. Cisneros of California, who himself is a Navy veteran.
    Mr. Cisneros, you are recognized for five minutes.

                  REPRESENTATIVE GIL CISNEROS

    Mr. Cisneros. Thank you, Mr. Chairman. Commander Reistad, 
thank you, and all of you, thank you for being here today. I 
especially want to thank the members from California who have 
made that long cross-country trip, especially I understand I 
have two members from my district, Martha Huff and Robert 
Brower, who are here representing California's 39th. So thank 
you all for being here today.
    I am a proud member of the American Legion Post 277 in 
Placentia. In fact, this hearing today is actually reminding me 
that I have to pay my dues this year.
    [Laughter.]
    So thank you for doing that.
    But I am also the grandson of veterans, the son of 
veterans, and as the Chairman said, a Navy veteran myself. And 
I understand the importance that the VA plays serving veterans. 
My father is a veteran, a Vietnam veteran, who is suffering 
from the side effects of Agent Orange, and I hope one day his 
Navy counterparts will be able to get the same treatment that 
he is receiving from the VA right now.
    [Applause.]
    But it is also--the important thing for me that I worry 
about is the transition of our servicemembers out of the 
military into the VA. My father also went over 30 years without 
being diagnosed that he was suffering from PTSD, and I do not 
want that to happen again to our current veterans that are 
serving in the service.
    So how, Commander Reistad and any of you, how can Congress 
support the VA as to make sure that we get a smooth transition 
from those that are leaving the military active duty service, 
that they are transitioning and making sure that they are 
getting the medical attention that they need and deserve in the 
VA, once they leave service?
    Mr. Reistad. Well, Congressman, thank you first for your 
question and for your service to our country. I believe it is 
essential that our military services promote transition at the 
end of a person's service, and I would like to ask our Director 
of Veterans Affairs and Rehabilitation to respond to your 
question please.
    Mr. Nuntavong. Congressman, thank you for your question. I 
served 22 years as a Marine, and I saw the great care that our 
active duty folks get while they are serving in the military. 
What we hope is that they continue to get that great care 
through the VA. Nine million servicemembers or veterans are 
enrolled in VA. We have 20 million veterans out there. We need 
to get them enrolled in VA.
    So what you can do to help us, to help our veterans, is to 
get them. VA care is the best care. Our members, our veterans 
prefer VA care over local care, and we believe that if we get 
them into the VA system that they will get that continued care 
that they deserve.
    Mr. Cisneros. Thank you. So the other question I have is 
how we can be supportive. VSOs, veterans' organizations like 
yourselves, the American Legion, and other organizations are 
out there. How can Congress be supportive in helping to grow 
your membership, to make sure that you have advocate that, 
continuing going on into the future they will be advocating for 
our veterans into the future?
    Mr. Reistad. I mentioned in my testimony, sir, the bill 
that we refer to as the Legion Act. It is currently Senate Bill 
504. Hopefully we will see the same in the House of 
Representatives. That will enable us to be able to grow our 
membership.
    I think the American Legion is challenged in the coming 
years to grow, but we have great programs and great people in 
our organizations and I am very fortunate to know many younger 
veterans that are getting involved in our organization and 
moving up the ranks and promoting our organization to their 
colleagues, families, and friends. And I believe that we will 
have another 100 years of strong service to our country ahead 
of us.
    But I would like to ask our legislative director, Matthew 
Shuman, to elaborate please.
    Mr. Shuman. Thank you, Commander, and thank you, 
Congressman, for the question, and thank you for your service, 
with the time we have left. I would agree, we are certainly 
looking for a member of the House of Representatives to 
introduce the House version of the Legion Act, and I am happy 
to chat with you after this hearing to see if we can make that 
work.
    Mr. Cisneros. And I would be happy to do that.
    I just want to thank you all again for your service to our 
country and thank you all for being here today.
    Mr. Reistad. Thank you for your question, sir.
    [Applause.]
    Chairman Takano. The gentleman yields back. I know 
recognize Senator Tillis of North Carolina for five minutes.
    Mr. Tillis. Thank you, Mr. Chairman, and thank you all for 
being here. I guess I have to start--I already heard--did I 
hear somebody mention somebody from North Carolina is coming up 
in leadership somewhere? Do we have any other folks from North 
Carolina here?
    [Applause.]
    There you go. Well, good morning.
    I want to cover a couple of things that I covered yesterday 
in the DAV meeting, because I think that you all are a very 
important part of us getting the Mission Act implementation 
right. One thing that is very important to me is that you all 
understand that Ranking Member Tester and I, with the 
encouragement of the Chair Isakson, have been meeting with the 
VA, literally, for about every six weeks since I have been 
here, to try to figure out what they are doing, what they are 
addressing as they have implemented new programs.
    So as we are moving forward we are always looking forward 
to your input on things that we should cover and progress, any 
concerns, and then again, conveying information that we get 
from those meetings to you all is very important. The Director 
does a good job of staying in touch with our office. In fact, 
we ran into each other on the sidewalk today. But he is always 
walking the halls here and doing a good job.
    So we just need your feedback, in a very constructive way, 
because I think--I believe the VA is moving in the right 
direction. We actually have a Secretary of the VA who I have a 
little bit of history with, who is also from North Carolina. He 
is the son of a gravely wounded combat veteran from the Vietnam 
War, and I think that he gets it. He has got a big organization 
to run so I am sure constructive feedback from everybody, 
particularly you guys, would be welcome.
    I will tell you a funny story that I had yesterday, because 
it relates to the implementation and what the VA looks like, 
say, 20 years from now. Senator Sullivan, who is a Marine, and 
I are good friends. He is from Alaska. We were, I think, at 
dinner one night and he told me, he said, "Thom, do you know 
that Alaska has more veterans per capita than any other state?" 
And I said, "Dan, do you know that North Carolina has got more 
veterans than you have got people?"
    [Laughter.]
    And the reason I tell that story was, one, I was jabbing a 
buddy of mine, but the other reason was to explain the vast 
differences and challenges we have from state to state. We need 
a brick-and-mortar presence and we need, as the Commander said, 
one of the greatest medical systems to continue to operate, in 
the mode that it operates today.
    But then again, we have also got to look at the unique 
challenges of a veteran who is in western North Carolina that 
may be 40, 50 miles away from a health care provider, and there 
are winding roads up in the mountains, or a veteran who is in 
Alaska, in the far reaches. So we have got to figure out what 
fits for those states and have the flexibility to do that. But 
I do not believe--I always say in these meetings, anybody that 
says this is the year and this is the Congress where everybody 
is going to move to privatization, I do not get it. I do not 
believe anybody in their right mind is going to do that. But 
what we are going to do is make sure that when you have a need 
that you get quality health care, and we want to give you every 
single option that we can to get it as quickly as possible. And 
I believe that is at the heart of what Secretary Wilkie and the 
VA are trying to do.
    Also, I am glad to hear that Congressman Cisneros is 
interested in trying to figure out how we increase your 
legions, because I am kind of interested in that too. That is 
what Senator Sinema and I have sponsored, Senate 504, the 
Legion Act, and we look forward to getting our colleagues in 
the House to get on board with it. I think it makes sense and 
we are happy to see that get to the President's desk.
    And then, finally, I want to talk about the unique position 
I am on. I have got a personnel subcommittee later today in 
Senate Armed Services, and I also agree with Congressman 
Cisneros. We have got to figure out a better way to connect the 
dots through transition, and we have got to find out a better 
way to identify what we consider to be traumatic events, maybe 
not rising to a level of being recognized, but the cumulative 
effects of concussions and other sorts of injuries that could 
ultimately have an effect on someone's behavior who served 
admirably until something clicked, and now they are discharged 
with bad paper.
    We have got to figure out a way how to actually deal with 
that in a fair and just manner. And I think that begins by 
spending a lot more time over the lifecycle of the active duty 
reservist, National Guard, to make sure that we really 
understand what may have happened to cause that sad outcome, to 
give them the care that they deserve, because they also are 
disproportionately high on the suicide list and we have got to 
change that.
    So I am not going to ask you all any questions but to say I 
appreciate you all being here today. The Director does a good 
job. I think the best meetings are the meetings that we have in 
our office so we can get back and get into the weeds with it, 
and I welcome you in my office every time. And next year, if 
you are stuck in a long line out at the sidewalk, trying to get 
through, if you come to the Dirksen entrance over here on the 
first floor, I will give you a big pass and make the Capitol 
police a little bit nervous. We let about 30 or 40 in a day.
    [Laughter.]
    Kind of shortens the line. Thank you all for being here. 
God bless you and thank you for your service.
    [Applause.]
    Mr. Reistad. Thank you very much, Senator.
    Chairman Takano. The Senator yields back. I now recognize a 
new member of Congress, the gentlewoman from Illinois who 
brings a tremendous background of nursing and public health 
policy knowledge to this Committee, Ms. Underwood from the 
state of Illinois. You are recognized for five minutes.

                REPRESENTATIVE LAUREN UNDERWOOD

    Ms. Underwood. Thank you, Mr. Chairman. Thank you, Chairman 
Isakson, Ranking Member Tester and Ranking Member Roe for 
organizing this important presentation from the American 
Legion. I also want to thank Commander Reistad and the Legion 
for being here and your presentation today, because of your 
invaluable insight and guidance that you provide into solving 
the challenges that our veterans face, and their families 
experience across our nation.
    So since we are doing some shout-outs, are there some 
Illinois veterans here today?
    [Cheers.]
    Ms. Underwood. Oh yes. Thank you so much. It is so good to 
see you. And thank you for your continued service. I look 
forward to learning from all of you today and hope to meet with 
you in the days and months to come.
    I represent a community in northern Illinois outside of 
Chicago, the Illinois 14th, and in our community we have 36,000 
veterans, 2,300 of whom are female veterans. And women veterans 
now comprise about 10 percent of the total veteran population 
and those numbers are expected to grow in the coming years.
    And so my question, really, is in the Legion's view, what 
does the VA need to be doing to ensure that female veterans are 
receiving the care that they need?
    Mr. Reistad. Well, thank you, Congresswoman, for your 
question and thank you for being so gracious this morning to 
let me tell you, I thought you were from Michigan.
    Ms. Underwood. That is okay. I went to Michigan, though.
    Mr. Reistad. But I will say this. I got wrong information, 
but I did live in Illinois as well. So I appreciate your 
representation of Illinois.
    And to give you a little bit of background, you know, our 
focus with women veterans is to ensure that they get the 
equality of services that they deserve. As I mentioned in my 
testimony, we are of the belief that a veteran is a veteran, 
and our female veterans deserve only the best quality care. And 
this would include gender-specific medical resources, 
mammography, gynecology, private treatment and exam areas, 
education and enrollment of more women veterans, and 
improvement of our outreach to them.
    And I would like to ask our Director of Veterans Affairs 
and Rehabilitation, Mr. Nuntavong, to respond further to your 
question.
    Mr. Nuntavong. Thank you, Commander. Congresswoman, the 
largest-growing population of veterans is the women's 
population and it is important that they receive the gender- 
specific care, as the Commander mentioned, that they deserve. 
But we hope that you can encourage VA to provide child care 
services in VA facilities and help VA find access to privacy 
needs that women veterans need as they come into medical 
facilities.
    Ms. Underwood. Thank you. And did you have any non- health 
care related issues that you wanted to just highlight related 
to the female veterans and any specific issues that we should 
be working on here in the Congress?
    Mr. Shuman. Yes, Congresswoman. Thank you for that. I think 
we need to do a better job of ensuring all veterans get better 
access to VA, but, in particular, female veterans. As you 
stated, this is the fastest-growing demographic and we need to 
certainly take care of our female veterans.
    I also certainly want to thank Congresswoman Brownley and 
Chairman Takano for creating a new staff position that will 
take care of this.
    Ms. Underwood. Excellent. And I would also like to commend 
Congresswoman Brownley for her excellent leadership in passing 
this important child care bill.
    My next question is about the advancement of medical care, 
particularly related to the traumatic brain injuries and the 
post-traumatic stress disorder to diagnoses that have become 
signature injuries from the global war on terror. Your 
organization has been studying these injuries for nearly a 
decade, and can you share any key policy recommendations that 
you have--I know you mentioned it, sir, a little bit, in your 
opening comments--on TBIs and PTSD that you would hope that the 
Congress can support your efforts in?
    Mr. Reistad. I would like to ask our Chairman, Ralph 
Bozella, of our Veterans Affairs and Rehabilitation Commission 
to respond to your question, Congresswoman.
    Mr. Bozella. Thank you, Commander. Thank you, 
Congresswoman. That is a very important issue, certainly, for 
all veterans, certainly including women veterans. And one of 
the reasons for the mental health issues deals with the MST, 
TBI, PTSD, all the pressure that go with returning from a 
combat situation.
    In the American Legion, we have a TBI PTSD committee. We 
are studying the issues. We have some publications on the 
issues, a booklet called "The War Within and the Road Home" and 
we would be glad to share that information with you as well as 
a white paper on suicide prevention.
    Although suicide prevention is a problem we talk about at 
the national level, it is a personal level, a family issue, a 
community issue, and I think all of us--Congress, the American 
Legion, VA--need to figure out how do we get this national 
issue down to that community level. That is where the work 
needs to be done. Thank you.
    Ms. Underwood. Thank you so much, and I yield back my time.
    Chairman Takano. The gentlewoman yields back. I would now 
like to recognize, for five minutes, the gentleman from 
Michigan, a former Marine lieutenant general, helicopter pilot 
in the Vietnam War, General Bergman, you are recognized for 
five minutes.

                   REPRESENATIVE JACK BERGMAN

    Mr. Bergman. Thank you, Mr. Chairman. In Marine terms that 
introduction is getting a little long.
    [Laughter.]
    But that is another way of saying the Chairman is 
acknowledging that I probably, as a young second lieutenant 
flying infantry around Vietnam, I probably earned every one of 
these white hairs. So, you know, there was a mutual admiration 
society between the helicopter pilots and the grunts. They 
thought we were crazy for flying them. We thought they were 
crazy for getting out.
    So anyway, I would like to ask--this is kind of a generic, 
you know, question. I am a member of the Legion post in 
Watersmeet, Michigan, a life member, and I am curious--this is 
kind of off the subject matter but yet it is very germane when 
you start talking about veterans and isolation after their 
service and where they go and reside. It is one thing to be in 
a big city and another thing to be in a very rural community. 
How is the Legion doing as far as propagating your membership 
on your rolls, not necessarily the folks who come to the 
Legion, you know, the Legion hall or whatever, these days, 
because the younger generations do differently. What is your 
plan to make sure those young veterans see the value in the 
Legion and get involved?
    Mr. Reistad. Well, thank you very much for your question. 
Mr. Chairman, our efforts to reach out to young veterans 
involve our own young veterans reaching out to them directly, 
and to speaking to them about what the American Legion brings 
to the table to benefit them in their life and provides them 
with resources and programs that might benefit them. 
Camaraderie is very high on the list, but the American Legion 
has programs in four pillars, which include veterans affairs 
and rehabilitation, it includes our children and youth and 
their children.
    Mr. Bergman. Are you still doing Legion baseball?
    Mr. Reistad. Legion baseball is part of that program, the 
children and youth, correct.
    Mr. Bergman. Has there been any talk about expanding, 
because I know baseball has always been a great sport. But has 
there been any talk within the Legion of expanding it to things 
like maybe soccer or lacrosse or anything? Again, I am looking 
at--we have got eight grandkids, 17 down to 10--
    Mr. Reistad. Understood.
    Mr. Bergman. --and we look at their involvement. And the 
beauty of what the Legion and the leadership does with-- as a 
young 16-year-old, I mean, had the--I was the benefactor of 
some guidance by some Korean War vets and some World War II 
vets. It was a little direct guidance, but----
    Mr. Reistad. Yes, sir. Mr. Chairman, for the last six 
months I have had the opportunity to present this organization 
and travel nationally, and one of the great things that I get 
to do in my travels is meet with the local American Legion 
posts. And it allows me to compare from one to the next and 
from one state to the next the different programs that we have. 
And it is not unusual at all for me to go an American Legion 
post that sponsors sports outside of American Legion baseball--
little leagues, soccer leagues and such.
    But also the beauty of our organization is that the posts 
are autonomous, which means they are given the breadth to be 
able to create their own programs.
    Mr. Bergman. I do not want to cut you off here because I 
appreciate your answer. And the autonomy of the posts-- because 
what we might do in the Upper Peninsula of Michigan may be 
different than what someone might do in downtown Dallas.
    Mr. Reistad. Right.
    Mr. Bergman. Whatever it happens to be.
    And I apologize if someone has already asked this question 
but I want to go--it goes back to the isolation in rural areas, 
the subject of--I would like to hear your thoughts on 
telehealth when it comes to delivery of health care, whether it 
be physical, psychological, whatever it happens to be. Any 
thoughts from a Legion perspective on where we are in 
telehealth and where we need to go?
    Mr. Reistad. Yes, sir. I have had the benefit of actually 
seeing the telehealth program personally out of the Minneapolis 
Veterans Affairs Medical Center, and it is truly a phenomenal 
program. And I have seen it also from the hospital room and how 
it functions.
    But I would like to ask our Chairman, Ralph Bozella, to 
respond in more detail to you regarding your question.
    Mr. Bozella. Thank you, Commander. Mr. Bergman, I am one of 
those grunts you used to drop off in Vietnam. Yes, we did get 
out of those birds.
    And the telehealth program we are finding is an excellent 
tool to be used, obviously, to cut distance for cert 
examinations, primary care, mental health treatment, actually, 
in mental health, general examinations, and other more specific 
things. They are using telehealth centers, much easier to 
build, much less expensive to run, with a nurse practitioner or 
a PA and then connected to a provider, you know, hours away. So 
it works well and we think it is a great program. We want to 
continue to see the development of that program.
    Mr. Bergman. Thank you. And, Mr. Chairman, I apologize for 
going over my time but I yield back.
    Chairman Takano. The gentleman yields back. I would now 
like to recognize my fellow Californian and Chair of our 
Economic Opportunity Subcommittee, Mr. Levin, for five minutes.
    Mr. Levin. Thank you, Mr. Chairman. I am so grateful for 
the opportunity to be here today and so grateful to all of you 
for everything you have done for our country. And thank you, 
Commander, in particular.
    I take my new responsibility as Chair of the subcommittee, 
House Veterans' Affairs Committee on Economic Opportunity 
extremely seriously, at a time of rancor and partisanship in 
our country. This subcommittee and the greater work of the 
Veterans' Affairs Committee provides us the great opportunity 
to get things done on a bipartisan basis, and I am very 
grateful to be able to work with you and your team in the 
months and years ahead.
    My district is in Orange and San Diego counties. Right in 
the middle we have got the amazing Marine Corps base, Camp 
Pendleton. It is an absolutely essential part of our district, 
and many who serve at Camp Pendleton really like the weather 
and decide to come back, so we have one of the largest veteran 
populations in the entire United States. And there are a lot of 
our veterans who are instrumental members of our cities, of our 
communities. There are others who need help as they transition 
to civilian life after their service.
    And my district has a lot of exceptional organizations 
doing that work. I think in many ways we are a standard for 
what can be achieved when we see our veterans as part of an 
integrated whole for our communities and our economy.
    I hope that together we can make progress on all sorts of 
opportunities for veterans--the GI Bill, issues around 
vocational rehabilitation, homelessness, home loans, and a lot 
more. And with that in mind I just had a couple of questions 
for you.
    I am concerned, and one of the things I hear a lot from our 
local veterans is the targeting of servicemembers and their 
families by for-profit schools, specifically incentivized by 
the 90/10 loophole that does not count GI Bill payments as 
federal payments but rather has them count towards the 10 
percent of funds that for-profit schools need to receive as 
non-federal payments. This can and has led to for-profit 
schools pushing for enrollment of students veterans to the GI 
Bill but not providing the quality education those student 
veterans need and deserve to success in their transition from 
military to civilian life.
    So, Commander, has your organization seen these or similar 
issues and do you support the closing of the 90/10 loophole?
    Mr. Reistad. Thank you for your question. I would like to 
defer your question to one of our experts here at the table, 
and that would be Chairman Troiola of our Veterans Employment 
and Education Commission.
    Mr. Troiola. Thank you, Congressman Levin, for your 
question. I am pleased that you asked that question. We, right 
now at the American Legion, have a resolution in place to close 
the loophole for the 90/10 discrepancy. The American Legion 
looks forward to working with you to try and close that 
loophole.
    Mr. Levin. Fantastic. And, you know, obviously we are also 
concerned about some of the issues surrounding the 
implementation of some of the provisions in the Forever GI Bill 
last fall, and will be following the implementation this year 
very closely.
    I am focused on the underlying problems that created the 
situation, specifically the aging information technology 
infrastructure in the Veterans Benefits Administration, the 
poor communication, at times, between the Office of Information 
and Technology and the business line customer, which resulted 
in inaccurate contract requirements that did not accomplish 
what was needed to implement Sections 107 and 501 of the 
Forever GI Bill.
    My question for you, Commander, is do you have any 
recommendations on what our subcommittee, the Economic 
Opportunity Subcommittee, should focus on as we ask the VA for 
its plan to modernize the Veterans Benefits Administration's IT 
systems?
    Mr. Reistad. Yes, sir. With your permission I would like to 
ask our Chairman, our Director of Legislation, Matt Shuman, to 
please respond.
    Mr. Shuman. Thank you for that question, Congressman. I 
think it is incredibly important for the Colmery GI Bill, which 
was named after the American Legion Past National Commander who 
wrote the original GI Bill, to be implemented correctly. That 
is certainly the intent of both of these committees.
    Focusing on the IT side of things, which is where we 
believe the errors took place, is absolutely critical. I think 
we need to focus and make sure that the new IT systems are 
implemented and that there is one system that works instead of 
hopping between multiple systems to be able to process the GI 
Bill benefit.
    Mr. Levin. Terrific. Well, I am really excited to be 
working with you and look forward to subsequent discussions and 
I am very grateful to you all for your service. Thank you so 
much.
    Mr. Reistad. Thank you for your question, sir.
    [Applause.]
    Chairman Takano. The gentleman yields back. I would now 
like to recognize the gentleman from Alabama, Mr. Sullivan, for 
five minutes.

                      SENATOR DAN SULLIVAN

    Senator Sullivan. Mr. Chairman--
    Chairman Takano. I am sorry. Alaska.
    Senator Sullivan. --So, Mr. Chairman, I am going to ask a 
little bit about--any of my fellow veterans from Alaska here, 
can you raise your hand? How about a round of applause. Now 
these guys--I know Senator Tillis, my colleague from North 
Carolina, was here a little bit earlier, talking about size and 
numbers. So, look, I will just be honest. My fellow Senators 
get a little nervous when I broach the subject of size, being a 
Senator from Alaska. So my fellow Alaskans flew about 5,000 
miles to get here so I appreciate that. And we do have more 
vets per capita than any state in the country, which I am also 
very proud of, but I think it makes guys like Senator Tillis 
nervous so I will not talk about the fact that Alaska is 
actually 13 times larger than the state of North Carolina.
    [Laughter.]
    So for you North Carolinians here, I am sorry, but you can 
send that back to your Senator.
    And General, I appreciate your comments. Being a grunt 
myself in the Marines, not a Vietnam vet, but somebody who has 
been taken around by a lot of our amazing pilots. I want to 
thank you for your service, and all of our Vietnam veterans, 
because they have done such a great job, and so we want to 
thank you.
    [Applause.]
    But I wanted to touch, Commander, on this topic that I 
think we are all--we all care quite a lot about. Actually, it 
was the first bill I co-sponsored as U.S. Senator four years 
ago, the Clay Hunt Suicide Prevention Act, which was named 
after a Marine who, unfortunately, took his life.
    What, in your view, are we doing in terms of suicide 
prevention programs that is positive, and then where are we 
still falling short? Senator Blumenthal and I are introducing 
the Reach Every Veteran in Crisis Act today, which, again, 
looks at filling some of the gaps as it relates to suicide. But 
can you expound upon what more we should be doing?
    Mr. Reistad. Yes, sir. Thank you for your question. We are 
trying to promote the enhancement of outreach and awareness to 
our veterans, not only externally but also within the VA. We 
want to promote the education of signs of potential suicide, 
and to promote the resources that are available so we can refer 
those at risk to the appropriate places to get health 
assistance and mental health assistance.
    Expanding and promoting mental health care treatment and 
increasing staffing for the VA's Integrative Health and 
Wellness Program. And I would like to ask Chairman Bozella if 
he can add to that list.
    Mr. Bozella. Thank you, Commander. Senator Sullivan, this 
is a problem that everybody has the greatest concern about. 
This is certainly the top of our list at the American Legion 
too. And earlier there was a discussion here about the 14 
veterans a day out of the 20 that commit suicide, those 14 who 
are not even connected to VA.
    Senator Sullivan. Yeah. Yeah.
    Mr. Bozella. You know that some of those veterans, the 
reason they are not connected to the VA, they are reserve and 
guardists. They do not have the benefit, or other veterans that 
may not be eligible for the benefit of mental health through VA 
vet centers and so on. So that is one.
    We have to look at why do people commit suicide. Mental 
health issues, certainly, a loss of purpose, a loss of a sense 
of belonging, and that is where VSOs can certainly help with 
that. We have to get this, as I said earlier, to that community 
level. I think one of the ways we can do that is through 
American Legion and VSO post homes.
    There is the initiative out there right now, the Governor's 
Challenge, seven pilot states. I know Montana, Colorado, 
Kansas, and Texas are among those. And that effort is to get VA 
to train people. How do we recognize someone is at risk? How do 
we then connect them to a VA service? So we are working closely 
with that. I personally will be involved with that in Colorado, 
and I am looking forward to working on an effort that will 
bring it locally.
    Senator Sullivan. Great. Well, listen, you know, I like to 
brag about my state with regard to our veteran population, but 
we also, like a lot of states, like a lot of big rural states, 
have a big suicide problem in Alaska. And so I would be honored 
if all of you gentlemen could take a look at our Reach Every 
Veteran in Crisis Act that we are introducing today and just 
give us your view and thoughts on what you think is good in it, 
what you think needs to be improved in it.
    But we can always improve on this issue, and it is 
heartbreaking issue. And no American wants this to happen and I 
appreciate the VSOs for all your attention to it, and I think 
you see here a lot of bipartisan support for addressing this 
challenge, which we have got to do better at.
    So thank you, Mr. Chairman.
    [Applause.]
    Chairman Takano. The Senator yields back, and I wanted to 
acknowledge the Senator's service to our country, his military 
service. So thank you, Senator.
    I would now like to recognize my fellow Californian and 
chair of our subcommittee on health and chair of our new 
Women's Veterans Task Force, Ms. Brownley, of California. You 
are recognized for five minutes.

                 REPRESENTATIVE JULIA BROWNLEY

    Ms. Brownley. Thank you, Mr. Chairman. And I want to add my 
voice to welcoming all of the California Legionnaires who are 
here today. And, Commander, I want to thank you for your 
leadership, all your past commanders, the American Legion 
Auxiliary, thank you for your leadership and the leadership, 
really, quite frankly, throughout the country that the American 
Legion does for serving our veterans across the country.
    And I certainly appreciate, Commander, when you talked 
about your mission that we cannot say "mission accomplished" 
but perhaps "mission still being accomplished." Because I think 
we have accomplished a lot but we still have a lot of work to 
do, and I think it is important that we need to do more than 
simply thank you for your service. We need to ensure that we 
are servicing every single veteran appropriately and positively 
across our country.
    And I am very excited, and I am grateful to Chairman Takano 
for allowing me the opportunity to led this Women's Task Force, 
and I think we are going to do some very good work and I look 
forward to working with the American Legion on this, and I know 
you are going to be very helpful in our mission to make sure 
that we are meeting the needs of our women veterans and their 
unique needs.
    I know Congresswoman Underwood talked and asked some 
questions, and I know that women veterans are a high priority 
for the American Legion. And, as I said, I am looking forward 
to doing that work.
    I think there are, when we are talking about women veterans 
and meeting their needs, I think there are probably challenges 
that cannot necessarily be fixed by legislation, but perhaps 
can be improved upon in terms of, you know, cultural changes. 
And I think one of the bigger challenges that I see, other 
than, you know, gender-specific health care and other issues is 
how do we make sure, how do we reach out, how do we make sure 
that our women veterans are actually identifying as veterans 
and coming to the VA for services?
    And I do not know if anyone can really speak to that but I 
think about--we just talked about the suicide rate amongst our 
veterans, both men and women. Commander, you talked about the 
women's suicide rate being twice what it is in terms of 
civilian suicide. The Chairman talked about the amount of 
veterans who are not using the VA who are committing suicide, 
and we obviously know what that gap means. I am wondering if 
you have a similar statistic with the women veteran population 
in terms of their suicide rate. I am assuming that the 
population is even greater in terms of the women committing 
suicide that have not reached out to utilize services from the 
VA, but I am just wondering if you actually have that 
statistic.
    Mr. Reistad. Senator and Chairman, I am afraid we do not 
have that information available to us right now but we would be 
more than happy to obtain that and get it to your office as 
quickly as possible.
    Ms. Brownley. Thank you. Thank you very much. And I just 
think that--I am really looking forward to this work on the 
task force and we hope to culminate that work by having a large 
piece of legislation articulating to better meet the needs of 
women veterans. But I think women suicide is of particular 
concern and a very, very high priority.
    Can you speak a little bit to some of the barriers that you 
see in terms of women reaching out to the VA for their 
benefits?
    Mr. Reistad. With your permission I am going to ask 
Chairman Bozella to answer your question. He has more expertise 
in that area.
    Mr. Bozella. Thank you, Commander. Representative Brownley, 
you have taken care of one of the barriers with the Child Care 
Act. In 2013, our American Legion system, we are saving 
program--dedicated the whole year of visiting VA hospitals for 
the purpose of assessing the women veterans' health care 
situation at the time. Even though that was six years ago, some 
of those barriers still exist--the privacy issues, the lack of 
gender-specific care, the entrances, the three levels of 
women's health care, which we are not going to go into right 
now, and how those are set up in a VA.
    But VA did authorize a mandate, a women's veterans 
coordinator in every VA medical center. That was a key 
component to getting things moving. Things are absolutely 
improving. Are they were they need to be? No. But that process 
has to continue.
    I think your task force is a great idea, and we still do 
System Worth Saving visits, of course. We do not dedicate it to 
one subject. But on every visit we do we have a women's 
veterans coordinator interview and we check their program out. 
And I would like to invite you or a task force member to 
accompany us on some of our System Worth Saving visits, or 
more, and you can see firsthand how we conduct that and how we 
can interact with women veterans. That will provide you with a 
great deal of insight.
    Ms. Brownley. That is excellent. And, Mr. Chairman, I know 
I am over my time but I would be remiss--I want to make sure 
that the Commander knows how well Director Shuman and his 
colleagues represent the American Legion here on Capitol Hill 
every single day. So thank you for that and thank you. I yield 
back.
    [Applause.]
    Mr. Reistad. Thank you.
    Chairman Takano. The gentlewoman yields back. I would now 
like to recognize the Senator from Arkansas, Mr. Boozman.

                      SENATOR JOHN BOOZMAN

    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here. As I said, with the Disabled Veterans, we work 
hard in a very bipartisan way to push things forward. Nothing 
helps more than having a full room. And so thank you all for 
being here. Thank you for taking the time, traipsing these 
halls, getting lots of steps in, you know, in the last few 
days. But there is simply no substitute for that.
    And we appreciate you so much, Commander Reistad, and then 
also your team. Not only your team that is assembled here today 
but the team that has been assembled for many, many years, year 
after year, you know, doing the great work. And we can be very, 
very proud of the fact that we have been able to keep more and 
more promises that are being made. We always have to remember 
that these are not give-mes. These are earned benefits. And so, 
again, we appreciate your service.
    Nobody does a better job than those from Arkansas, and we 
appreciate their efforts. Wave to me if you are--I will not 
make you call the hogs, but we do appreciate you being here, so 
thank you so much.
    [Applause.]
    Senator Boozman. I would like to talk about just a couple 
of things real quickly, and, you know, the themes are here. One 
of them is suicide. We have been talking about that all day. It 
is so, so very important. One of the things that I would really 
like to concentrate on, this Committee and then on the 
Appropriations Committee, we are spending lots of money on 
suicide. That is a good thing. But we do not seem to be moving 
the needle, you know, a whole bunch. Every year the statistic 
seems to be the same.
    So one thing that we would really like to concentrate on is 
evidence-based, you know, things that are actually making a 
difference, you know, putting the metrics in place. So I really 
do not have a question about that. What I would like is a 
commitment just that you can help us in that regard, again, to 
insist that we make sure that the dollars that we are spend--
and we are spending lots of dollars in this area--making sure 
that we have the evidence and this and that that are backing 
that up so that we can move the needle in the future. Suicide 
is such a difficult problem. You know, it is just a--it is a 
hard nut to crack. But I do think that that would be helpful.
    The other thing I would like to talk a little bit about is 
homelessness, and in your testimony you talked about, you know, 
PTSD, people that, you know, felt like they were not a part, 
you know, all of the different things that contribute to that, 
not only with suicide but also with homelessness too.
    And so I guess my question in that regard is, as I said, we 
are spending a lot of money in that area. Can you talk to us a 
little bit about any ideas you have got as to how we can do a 
better job in that regard?
    Mr. Reistad. Yes, sir. There are several things that we can 
do. As far as homelessness is concerned we can invest in 
affordable housing, supportive services for our veteran 
families, and transitional resources to help our homeless 
veterans get back on their feet in their communities.
    But I would like, with your permission, Mr. Chairman, to 
ask Chairman Troiola of our Veterans Education and Employment 
Commission to respond to that question as well.
    Mr. Troiola. Thank you for your question, Senator. The 
American Legion focuses more on prevention than the actual 
homelessness itself. We feel that if we get them before they 
hit the streets that we have a better success rate. We offer 
support for at-risk veterans during the transition process and 
also homeless veterans that have been out there for a while. 
What we ask--what we try to do is we try to get them help with 
health care, help with veterans' benefits, counseling, advice 
that they may need.
    We recommend that Congress continue to fund the homeless 
veterans transitional housing program at the level of needed 
demonstration in their local communities.
    Senator Boozman. Very good. Commander, we have got the 
access standards, you know, the proposed access standards 
regarding the Mission Act, and it seems like, you know, that 
that is being something that, you know, is accepted, you know, 
moving in the right direction.
    One of the promises that was made in regard to--as we went 
forward with these things is having the ability from input, you 
know, from you and others. Have you all been pleased with that? 
Have been able to give any input in regard to the standards? I 
do think--you know, this--you all are the ones--the answers 
need to come from the bottom up, and I have had a little bit of 
concern in that regard. Can you address that very quickly?
    Mr. Reistad. Yes. Mr. Chairman, if I can defer to one of 
our resident experts here at the front table I would like to 
ask Director Shuman of our Legislative Division to respond to 
that question.
    Mr. Shuman. Thank you for the question, Senator. We have 
been engaged. Secretary Wilkie himself has come over and met 
with our executive director and our Veteran Affairs and 
Rehabilitation team to be involved. We very much look forward--
you will find no greater friend to the American Legion to 
vigilantly be aware and watch how these access standards are 
being implemented, and the first second we see veterans not 
being treated and receiving the care they need we will be 
knocking on your door.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Takano. The Senator yields back. I would now like 
to recognize the Senate Ranking Member of the Veterans' Affairs 
Committee in the Senate, the gentleman from Montana, Senator 
Tester.

                       SENATOR JON TESTER

    Senator Tester. Well, thank you, Mr. Chairman, and once 
again thank you all for being here.
    We have talked about suicides and there was a point brought 
up earlier, I think, by you, Chairman Bozella, that guardsmen 
and reservists are not eligible for mental health care or vet 
centers. I have got a bill that will take care of that, and it 
applies to both reservists and guardsmen.
    [Applause.]
    And it applies to them even if they have not been deployed, 
which I think is also critically important. We have not 
introduced it in the 116th yet. I need a partner on the 
Republican side before we are going to drop this bill in 
because it needs to be bipartisan. So I just want to bring that 
out and hopefully we can get some folks to jump on board, 
because one suicide is too many and we have got far more than 
that.
    Commander Reistad, I just kind of want to get your general 
views on VA health care. Would I be correct in saying that a 
majority of your members prefer care directly from the VA? 
Would that be a correct statement?
    Mr. Reistad. Yes, that would be a correct statement.
    Senator Tester. Okay. Do they believe that--do you believe 
or they believe that community providers should be held to the 
same standard as VA providers?
    Mr. Reistad. Absolutely, they should.
    Senator Tester. And when it comes to expansion of care, 
would the American Legion be alarmed if access in the community 
meant a reduction in quality or timeliness of care for your 
membership?
    Mr. Reistad. Well, with all due respect, sir, whether you 
know it or not, today is National No-Brainer Day.
    [Laughter.]
    And I would have to say that that is a no-brainer.
    Senator Tester. Perfect. That is what I was hoping for. 
Well, I mean, those are things we have got to be aware of, 
because the truth is that the VA does get a lot of criticism 
but they do a lot of stuff really well.
    Mr. Reistad. Absolutely.
    Senator Tester. And the fact is that when we go into the 
private sector, if we are increasing--if we are making wait 
times better but decreasing quality of care we did not win. If 
we are making wait times longer we did not win. So those are 
important things moving forward, because I think the VA, we 
need to--my personal opinion, I think most people's opinion, 
and I think certainly the American Legion is build capacity 
within the VA, make it all it can be, and then if it cannot 
meet the needs put them out in the community.
    I want to talk about the budget for a second. Normally we 
have the budget by now. We do not have it quite yet. But I 
would like to give the American Legion an opportunity to talk 
about what their priorities should be in this fiscal year's 
budget.
    Mr. Reistad. Well, thank you for the question, and, Mr. 
Chairman, I think this question would be better answered by our 
Legislative Director, Mr. Shuman.
    Mr. Shuman. Well, thank you for the question, Mr. Ranking 
Member. I think all of our priorities are right here. I think 
when it comes to the VA budget there was--it was shared several 
months ago that the President's administration asked for a 5 
percent cut to all federal agencies and instantly the American 
Legion began engaging senior leadership at VA and, of course, 
the White House to say this is not a time to be cutting any 
budget from the Department of Veterans Affairs. This is a time 
to ensuring that we keep the promises made to the men and women 
who have selflessly raised their right hands.
    [Applause.]
    Senator Tester. Well, thank you, and thank you all of what 
you do, representing the fighting men and women in this 
country. I appreciate your testimony. Thank you, Commander 
Reistad.
    Mr. Reistad. Thank you.
    Chairman Takano. The Senator yields back. I now would like 
to recognize the gentleman from Louisiana, Senator Cassidy, for 
five minutes.

                      SENATOR BILL CASSIDY

    Senator Cassidy. Thank you, Mr. Chairman. Any of my folks 
from Louisiana still here? I think I saw--oh yeah. Thank you.
    So if Sullivan was still here I would tell him every Sunday 
I teach Sunday School. I actually teach first- graders so it is 
more riot control. But one of the fellows goes up to Alaska 
regularly, and we always look at the weather in Nome and 
Anchorage and compare it to Louisiana. I can tell you, folks in 
Alaska, come down to Mardi Gras this time of year, you know, 
and I think you will be less likely to die from cold exposure.
    I am a doctor, and so as we have spoken of suicide and 
mental health it matters a heck of a lot to me. But I am going 
to take it from a little bit of a different approach. Chairman 
Bozella, you said something earlier. You spoke of that sense of 
purpose that some folks leave. Now the literature shows that 
the greatest risk for suicide is within the first year or so 
after separation from the service, and one thing that is great 
to see is some young folks in your audience, because obviously 
you need that connection with those who are just leaving the 
service.
    But I remember seeing a video of one man who had attempted 
to commit suicide and his wife found him. And he was hanging 
himself and she picks him up and somehow gets him off. 
Incredibly moving. And they are interviewing him afterwards and 
he said, "I did not quite know what I was doing. All I know is 
that a year ago I was a Marine and now I was fill-in-the-
blank." There was not that sense of purpose.
    Now then, go to another conversation I had this past week 
with a major employer in my hometown of Baton Rouge, and I 
think they tell me that they are the leading employer of 
veterans. They do construction work, pipelines, and civil 
engineering, and they find it is a team, it is a goal, it is 
responsibility, it is a mission, it is authority. And so 
everything that gives that sense of purpose.
    Now why do I go into this? One, it is important, but 
secondly, the way they have achieved this is they have hired 
someone who was experienced with the bureaucracy that knows how 
to get a veteran about--excuse me, a serviceperson about to be 
released and put them through the training program they may 
need in order to have the skill set in order to then join their 
company. And I thought to myself, I am so glad you are doing 
it, performance contracting, but why do you have to hire 
somebody specifically to make it happen? What can we do to 
streamline it so that that veteran--excuse me--the person who 
is about to be a veteran does not need someone to guide them 
through any more than as you check out, this is what you can 
do? Do you follow what I am saying there? Any comments on that? 
Commander?
    Mr. Bozella. Thank you, Commander, and thank you, Senator 
Cassidy. You know, with the sense of purpose also comes a sense 
of belonging.
    Senator Cassidy. Yes.
    Mr. Bozella. There were two issues there, and they go hand 
in hand. And that Marine, a year later, is wondering "Who am I? 
What am I doing?" One of the ways you gain that sense of 
purpose is to continue to serve, and people who have joined our 
military, they serve. And when you get involved in the veteran 
service organization, the American Legion, believe me, we will 
put you to work. You will find a way to serve. That is one way. 
That is a streamlined, one of the ways that I see it.
    I am a combat veteran to Vietnam. When I came home I went 
through that. I know what it is to live it and it took a while 
to find myself through that. And one of the greatest ways I 
found myself was through being able to serve other veterans. 
That became my sense of purpose, even though I was employed in 
a different field, and I was able to develop that. And I see 
that with a lot of younger veterans when we are able to talk to 
them.
    So how do we connect them to those kind of employment 
opportunities? I believe that probably would be something that 
our employment people at this table could answer that better.
    Mr. Reistad. With your permission, Mr. Chairman, I am going 
to ask Chairman Troiola to respond to that.
    Mr. Shuman. So, Senator, we spend quite a bit of time with 
our Small Business Task Force in terms of engaging and 
certainly credentialing as well. We meet with and work with the 
Department of Defense, really. We just had a meeting with the 
Sergeant Major of the Army Dailey who is doing a wonderful job 
in transitioning and finding credentialing programs. We want to 
be able to make sure and really in partnership with small 
businesses and our credentialing roundtables that we find the 
best practical ways to transition so when these servicemembers 
leave they have a certificate and really a means to be able to 
find that purpose that you were mentioning.
    Senator Cassidy. Well, thank you for that. One bill I 
sponsored and passed when I was in the House was to allow those 
folks trained as EMTs in the military to get credentialed, 
whichever state they went to, with minimal hassle, figuring 
this great training they have had would help address a shortage 
that we have in our person power, if you will.
    So if you have those paradigms, Director Shuman, or 
Commander, please share them with me.
    Again, I thank you for all you do. Our country would not be 
what it is without you. I appreciate it.
    I yield back. Thank you.
    Chairman Takano. The Senator yields back. I now would like 
to recognize the Member of Congress from the state of New 
Hampshire, Mr. Pappas, for five minutes.

                  REPRESENTATIVE CHRIS PAPPAS

    Mr. Pappas. Thank you, Mr. Chair. Thank you to Ranking 
Member Roe and Commander Reistad, it is a pleasure and an honor 
to be with you. As the grandson of three World War II veterans 
I honor the service of our men and women who have worn the 
uniform of this country and it is an honor to be a part of this 
Committee and to be working with you, your leadership, your 
members, and veterans' advocates across this country to ensure 
that we get implementation right of so many of the key 
strategies that have been put into law in the recent past. And 
I think that is a common theme you are hearing here. This is 
where the rubber hits the road in this term.
    As the Chair of the Oversight Subcommittee of the House 
Veterans' Affairs Committee I want to ensure that we are doing 
that in a responsive way for the veterans of this country, that 
we are honoring their service and ensuring that we are 
providing the best care possible.
    One of my concerns, as, you know, someone from the Granite 
State, which is not as big as Alaska but is mighty in terms of 
its veteran population--we have 14,126 members of the Legion in 
my state--is that we are meeting their needs in terms of pain 
management and ensuring that we are not seeing the type of 
over-prescribing and linkages to the opioid crisis that have 
been unfolding in tragic ways across this country. We lost 
72,000 individuals in this country last year to overdose deaths 
because of opioids, and many of those are veterans.
    So I am wondering how you can assess the response of the VA 
to this crisis and what potentially community partners can 
learn from the VA's experiences.
    Mr. Reistad. Well, Congressman, thank you first for your 
question, and with the consent of the Chairman I am going to 
ask Chairman Bozella to respond to your question.
    Mr. Bozella. Thank you, Commander. Congressman, the pain 
management issue is a major issue across our country. Obviously 
opioids, some people think, is the number one problem in this 
country because of the addiction that comes along with that. 
Also, the psychotropic drugs that are used for PTSD--and, by 
the way, there is not a magic PTSD pill, and most of those 
drugs have adverse effects on people too. So we need to do a 
better job of finding the treatments that will work for people.
    One of the aspects that we are looking at, that we 
investigate in the American Legion through the VA, are the 
complementary and alternative medicines--the yoga, music, 
equine therapy, fly-fishing. I mean, it may sound trivial. It 
is not. That is one of the ways that people can manage their 
pain. Pain management clinics, VA has those kind of clinics.
    So the advocacy is to move in that direction and away from 
the kind of drugs that are causing a lot of problems with 
people these days.
    Mr. Pappas. Thank you. I appreciate the response.
    One of the issues that the Legion members from New 
Hampshire raised with me is a problem that they have seen with 
arbitration clauses that prevent reservists who are returning 
to their jobs after serving on active duty from getting back 
into the role that they once had. And I am wondering if you 
have seen this on a national scale.
    Mr. Reistad. Congressman, I would like to ask Director 
Shuman to please respond to your question.
    Mr. Pappas. Thank you.
    Mr. Shuman. Thank you for that, Congressman. We really 
appreciate the Granite State as well.
    I will say this. Yes, we have seen it as an issue and we 
need to find a way to create a partnership between you and us 
in terms of finding a way to prevent USERRA rights from being 
thrown away. If we do not have the ability, and private 
companies do not have the ability to take away our First 
Amendment rights they should not be able to take away our 
USERRA rights either. These people and these members of the 
Armed Forces serve honorably and we promise them that we will 
protect their jobs. Finding a way to--federal legislation to 
prevent arbitration clauses is probably the step in the right 
direction.
    Mr. Pappas. Thank you. One final question. In my state we 
have a 2.5 percent unemployment rate, which is great, but it 
makes it hard to recruit and retain medical professionals. And 
a recent GAO report found that over 10 percent of full-time and 
authorized budget positions are vacant, and that means about 
45,000 vacancies across this country.
    I am wondering if you know of some ways that the VA can 
continue to work to attract highly qualified medical 
professionals to fill positions and offer the care that 
veterans need?
    Mr. Reistad. Thank you for the question, sir. I am going to 
ask our Director of Veterans Affairs and Rehabilitation, Mr. 
Nuntavong, to please respond to your question. Thank you.
    Mr. Nuntavong. Thank you for your question, Congressman. 
The pay disparities between VA physicians and physicians in 
private care is drastic. We need to find a way to fund the VA 
physicians and health care providers better. That is the bottom 
line.
    Mr. Pappas. Dollars and cents. Thanks so much.
    Chairman Takano. The gentleman yields back. I now would 
like to recognize the gentleman from Kansas, Senator Moran.

                      SENATOR JERRY MORAN

    Mr. Moran. Thank you very much, Mr. Chairman. Thank you, 
Commander, for your presence here and for your colleagues with 
you. I had the opportunity to meet with members of the Kansas 
American Legion yesterday in my office--Dan Wylie [phonetic], 
Dave Wornkin [phonetic], and Gaylord Sandeman [phonetic]. We 
previewed the conversation we might have today, and I 
appreciate every year that you and the members of the American 
Legion come see me.
    I also know, Commander, I know former National Commander 
Mike Helm very well, a Kansan, and I recognize the tremendous 
amount of work that goes into the job that you have, and we 
welcome you when you visit our state.
    You have more credibility, Commander, than I do, but I 
think the American Legion and I are on a mission together. You 
have been--American Legion has been an ally in everything that 
I can think of we worked on in regard to veterans for as long 
as I have been in Congress. But I want to give you the chance 
to help me get a piece of legislation passed.
    Today I introduced, with a number of my colleagues, 
legislation called the Fairness For Korean DMZ Veterans Act. 
What we have learned is that there are veterans who had 
exposure to chemicals, to Agent Orange, in the Korean DMZ prior 
to the current preemptive--I am sorry--the presumptive date of 
April 1968. Evidence from the Department of Defense shows that 
testing and spray of Agent Orange and other herbicides was 
being conducted prior to that April 1968 date, and yet the VA 
has not changed its current dates for that presumptive 
eligibility to reflect those instances of earlier exposure.
    So this legislation corrects that mistake, that error. It 
requires the VA to recognize the facts as we now know them, and 
in the process take care of many veterans, many military men 
and women who were exposed to something that is very dangerous 
to them, and I might add something that can be very dangerous 
to their children and grandchildren. It is--I have every 
expectation that every man and woman who served in our military 
knew that they were risking themselves, their own lives, and 
their own futures. What a tremendous burden it must be to know 
that your actions in serving our country could have caused harm 
to your children and grandchildren, something that no one would 
ever want.
    So we have worked on a number of instances to try to deal 
with Agent Orange and other chemicals. Commander, I believe 
that the American Legion supports this legislation. If you say 
yes I am going to ask you to explain to me and to my colleagues 
why.
    Mr. Reistad. Well, Senator Moran, absolutely yes, and let 
me just go back about a week in time to my travels in 
Mississippi. I had the occasion to sit with a veteran at a 
function that we were at, who began a conversation with me 
regarding this very issue. He served in the United States Army 
in 1967 along the DMZ, and he informed me that while he was 
there he observed the defoliant Agent Orange being sprayed 
along the areas that he was situated at the DMZ.
    And he inquired about the status of the legislation, the 
prior legislation that you had introduced into Congress, and I 
did some quick searches on my smart phone and came up with the 
legislation and the information he requested, and noticed that 
there was no traction on that. I guess it never got out of 
committee for a vote. And he was very disappointed to hear 
that. And the man obviously had obvious Parkinson's. He was 
shaking and he expressed great concern over that.
    And that, I think, is where the wheels went in motion, and 
I made it a point to convey those concerns to our legislative 
director sitting beside me. And it was through his efforts that 
your office was contacted and this legislation will again be 
introduced. And I am so thankful for that and I assure you he 
will be as well.
    Mr. Moran. Thank you for relaying that story. I would tell 
you our previous efforts, our continuing efforts in regard to 
Agent Orange and other toxic chemicals. We have had some 
success, and portions of that legislation have become law, 
pulled out of that legislation and passed with other pieces of 
legislation, including the declassification, more 
declassification of Department of Defense records, so that a 
veteran can better access and prove his case, or her case, of 
where they were stationed and what their chances of exposure to 
those toxic substances were. And the medical research has now 
been conducted that further demonstrates the connection between 
generations and exposure to Agent Orange.
    So we are setting the stage for additional opportunities 
for Congress and for the American people to support those who 
served our country and served it in a way that caused them to 
be exposed to chemicals very dangerous to their health, and 
perhaps to their families' health.
    So, Commander, thanks for being an ally in this regard and 
thank you for your endorsement of that legislation.
    Mr. Reistad. Thank you, sir.
    Chairman Takano. The Senator yields back. Senator, I want 
you to know that the Korean War veterans exposed to Agent 
Orange are covered under Section 3 of my bill, H.R. 299, so I 
look forward to working with you.
    I now would like to recognize the gentlewoman from Hawaii, 
Senator Hirono, for five minutes.

                      SENATOR MAZIE HIRONO

    Mr. Hirono. Thank you very much, Mr. Chairman. I join all 
my colleagues in thanking all of you for being here today, for 
your service, and I would like to give a shout- out to the 
folks from Hawaii. And if you are still in the audience and can 
stand I would like to recognize John Williams and David Carlson 
from Hawaii. They came a long way to be with us. Mahalo.
    [Applause.]
    Mr. Hirono. Commander, last year, as you mentioned, we 
passed very important legislation, the VA Mission Act, to 
overhaul the Choice program. And we want to make sure, though, 
that we are not heading toward privatizing, as you put it, the 
greatest health care system in the country.
    So I wanted to get your thoughts on a specific thing that 
is happening under the implementation of the Mission Act. The 
VA recently released the proposed access standards for 
community care under the Mission Act. Are you at all concerned 
that the access standards, which I assume you are familiar with 
what I am talking about, as it is proposed, could move us 
toward privatizing the VA system?
    Mr. Reistad. Senator, thank you for your question, and with 
the consent of the Chairman I would like to ask Chairman 
Bozella to respond.
    Mr. Bozella. Thank you, Commander. Thank you, Senator. The 
Mission Act, of course, is on everybody's radar screen, very 
high. The American Legion worked hard on the Mission Act with 
other entities of Congress and VA to make this a reality.
    I think the first thing that we always need to keep 
foremost in all of our minds is all care through VA is VA care. 
We sometimes seem to forget that when we talk about care of the 
community or non-VA care, those kind of terms. And when it 
comes to--whether or not that is privatization, we are 
carefully monitoring every aspect of that to ensure that if it 
turns into privatization we will raise the flag.
    The thing about VA care is as long as we know that it is VA 
care, if there are problems, and somebody was mentioning 
earlier there are always going to be problems, a new system 
coming on and all that, we know where to go. We are going to go 
to VA as a VSO, as a leading VSO, to work with them to help fix 
that problem. We are going to be here to testify before you 
about those problems. If it is all privatized, who do we go to? 
So we have to remember----
    Mr. Hirono. Exactly.
    Mr. Bozella. ----we have got to work hard to keep it VA 
care. And we are familiar with the access standards. We had 
some input into that. And the one concern that we have is 
urgent care and the $30 copays on the third visit. We are not 
going to be in acceptance of any copays for service- connected 
disabled veterans.
    Mr. Hirono. Thank you very much.
    Commander, I am glad that you mentioned that suicide 
prevention is still a major factor, a major concern, and that 
suicide rates are going up. So there was a GAO study regarding 
what the VA is doing in preventing suicides, and so I do thank 
Senator Blumenthal, who is right here with us--not to steal his 
thunder--but under his leadership Senators Boozman, Tillis, who 
you heard from earlier, and I will be introducing tomorrow 
Reach Every Veteran in Crisis Act. And this bill does make 
reference to the GAO report and the shortcomings in the VA. So 
we are on that page with you, Commander.
    There was also a reference to the telehealth services, 
because much of our country is in rural areas. It is an issue 
that Senator Harris and I took up and there is a provision--
there was a provision in the Mission Act to allow for more 
telehealth, and I am glad to know that it is working out and 
that you would like to see that further developed.
    So, the other questions were already asked, but we are on 
the page with all of you. Thank you so very much for being 
here. Mahalo. I yield back.
    Mr. Reistad. Thank you.
    Chairman Takano. The Senator yields back. I would now like 
to recognize the gentleman from Vermont, Mr. Sanders.

                     SENATOR BERNIE SANDERS

    Mr. Sanders. Thank you very much, Mr. Chairman, and let me 
thank Commander Reistad for being here and your fantastic 
staff.
    Mr. Reistad. Thank you.
    Mr. Sanders. And let me thank all of the men and women in 
the room. You have done something above and beyond what human 
beings are normally asked to do. You have put your lives on the 
line to defend this country, and all of us are deeply grateful 
to you. And it seems to me, having made that commitment to this 
country, we owe you nothing less than, among other things, the 
best quality health care that this nation can provide to 
anybody. You have deserved that and we thank you for that.
    [Applause.]
    And I also want to thank the Legion not only for the great 
work you do on veterans' issues but what you do in our 
communities. In Vermont, for example, your Boys State and Girls 
State programs are very, very important. I worry very much that 
a lot of the young people in our country, the kids in this 
country do not understand what you put your lives on the line 
to defend. They do not know what the Constitution of America is 
about. They do not know what democracy is about. And you do a 
great job, in a very nonpartisan way, in Vermont, in getting 
kids to think about these important issues. So thank you very 
much for doing that.
    I had the honor of being Chairman of this Senate Committee 
a number of years ago, and we tried to do our best to expand VA 
health care. We did not quite get the support that we wanted, 
the bipartisan support that we wanted. But there was one 
issue--two issues, actually--that we raised, one where I think 
we have had some success, one not so much success.
    When we talk about health care it has always seemed to me 
that dental care is part of health care. All right?
    [Applause.]
    Mr. Reistad. Absolutely.
    Mr. Sanders. And I can tell you that in Vermont you have 
got a lot of veterans who have serious problems with their 
teeth, and if you have dental problems that could lead to other 
health problems. And one of the things we tried to do is to 
make dental care a part of VA health care, not just for 
service-connected folks but for every veteran who accesses VA 
health care. Commander, is that something that makes sense to 
you?
    Mr. Reistad. Mr. Chairman, thank you for your question. 
Absolutely it makes sense to me, and I would like to ask 
Director Nuntavong to please elaborate on that.
    Mr. Nuntavong. Thank you for your question, Senator. As I 
testified before the Senate Committee a few months ago, dental 
care is health care. Our veterans deserve that health care. 
When I was on active duty I saw the dentist twice a year 
regularly to receive my care, and that care needs to continue 
on as I am a veteran of these United States.
    Mr. Sanders. All right. So I look forward--we will 
introduce legislation, and have in the past, to make dental 
care part of VA health care, and we look forward to working 
with you on that.
    Let me touch on the broader issue that Senator Hirono and 
Senator Tester and others have raised. And I can recall like it 
was yesterday, I think it was right in this room, when I was 
Chair we had a hearing and we had all of the veterans' 
organizations. We had the Legion there, we had the VFW, the 
DAV, and so forth. And I went down the list and I asked them 
whether they thought VA health care was of high quality. And 
without exception, including the American Legion, the answer 
was yes, we are proud of what the VA does. Could it be better? 
We all agree it can.
    But one of the things we are also aware of, because the VA 
is government program, that every time there is a problem in 
the VA it makes the front pages of the newspapers. When there 
is a problem in a private hospital, somehow it does not make 
the front pages of the paper.
    Now one of the concerns that I have is we have a national 
health care system with a lot of problems. We have got 30 
million people uninsured. We have even more underinsured with 
high deductibles and copayments. We pay the highest prices in 
the world for prescription drugs. And in many ways the VA has 
dealt with that issue. It has said, "Come on in to the VA. We 
are going to give you holistic health care, and the door is 
open to you, and the cost of prescription drugs will be lower 
than in the private sector."
    It is no secret to you, or to any American--now there are 
big differences of opinion here in Congress. There are people 
who do believe in privatization. And what I fear very much is 
if we continue to put all kinds of money into the private 
sector you are going to be taking money out of the VA. And I 
worry very much that as we speak today there are 46,000 
vacancies in VA health care, and we cannot expect VA to provide 
the quality care they should if there are those kinds of 
vacancies.
    Do you share the concern that some of us have raised about 
the fact that we are not adequately funding the VA in making 
sure that we fill those vacancies? Is that a concern, 
Commander, that you have?
    Mr. Reistad. Senator Sanders, I would like to ask Director 
Shuman to please respond to your question.
    Mr. Shuman. Thank you so very much, Senator. It is 
absolutely crucial that we fill the 46,000 vacancies at VA. As 
I have said, you have no greater friend than the American 
Legion in really working on reforms and legislation to make 
that happen.
    Mr. Sanders. Okay. And, by the way, thank you, Matt, thank 
you very much for coming to Vermont for that very great town 
meeting we did.
    Mr. Chairman, my time has expired. Thank you very much. I 
yield.
    Chairman Takano. The gentleman yields back. I am informed 
that Dr. Roe, the Ranking Member of the House Committee would 
like to--I would like to recognize him for five minutes.

                    REPRESENTATIVE PHIL ROE

    Dr. Roe. Well, it looks like the news story today is that 
Senator Sanders moved over to the Republican side.
    [Laughter.]
    Chairman Takano. Mr. Chairman, he is still to the left.
    Mr. Sanders. Not very likely.
    [Laughter.]
    Chairman Takano. But he is still seated to the left.
    Dr. Roe. Glad to have you here, Senator. First of all, 
Matt, thank you--excuse me, Mr. Shuman. You have a great staff, 
Commander, it is a pleasure to work with you guys, so thank you 
for that.
    I want to go through a few things very quickly. As the 
Chairman just said, the bill we passed in the House last year 
did cover the Korean--the area in Korea that was sprayed by 
Agent Orange, for the Blue Water Navy. I have some empathy with 
that because I stomped around that piece of ground for about a 
year of my life.
    I also want to congratulate the Legion on its 100th 
birthday. My old division, Second Division, stood up 101 years 
ago, so it is basically the same age of the Legion. And I also 
want to thank the Legion. One of the pieces of legislation that 
I carry with some pride from this is the Harry Colmery Forever 
GI Bill. That is a great--I used the GI Bill in 1975, when I 
got out of the Army, and I am grateful, Commander, to this day, 
of the $300 a month that my country invested in me at that time 
to finish my education. And now that you can use it the rest of 
your life, technology is changing so rapidly, that I thought 
that was--and we fully paid for that.
    I do want to mention just one thing, and, Matt, you were 
very clear on that. Those 46,000, they are funded positions. 
When I got here in the Congress, in 2009, we spent $97.5 
billion on all VA care. That is health care, disability 
benefits, and cemeteries.
    And I also want to say one thing about cemeteries. Nobody 
in the world does it better than the VA. The VA cemeteries are 
phenomenal. I visited, I do not know how many. I have one a 
mile from my home in Johnson City, Tennessee. I tell you, if 
you ever go to sacred ground it is a VA cemetery, or a national 
cemetery, this government does. And we went--last year we took 
a group to Europe to see the World War II and World War I 
cemeteries. It was an extremely moving time for me to have 
visited those areas and to see how sacred that ground is.
    We were spending 97.5. Our budget last year was north of 
$200 billion. So the VA has been funded, and everywhere I go 
ask them, "Do you have adequate resources to carry out your 
mission?" And basically what they tell me at the VA medical 
centers and other places, they do have adequate funding to do 
that. Are there areas that need more funding? Sure. But I think 
right now that the VA, at least what I hear from the central 
office and from going down to various places that they have 
that.
    Suicide, to me, is one of the things I think that has 
bothered me the most--a young person, or even someone my age 
now that sees that as their only out in life. I mentioned, when 
Commander Hastings, the Tennessee Guard was here before, he, 
when he commanded--he has been replaced now--but they started a 
program called Guard Your Buddy, and he had four suicides in 
the first 40 days he was the commander of the Tennessee Guard. 
We have got to do something.
    So they put this program in and they have reduced suicide 
in the Tennessee Guard by almost 70 percent. And I asked, "Is 
this scalable?" It is, to our guard and reservist members and 
we should look at programs that work like that, and do not 
reinvent the wheel. Do that across the country. I think that is 
doable and it is not very expensive.
    And I asked last year--we were spending $8 billion a year--
Senator Boozman talked about this--on mental health issues and 
suicide, and we had not moved the needle at all. So I said, 
``Why do not we do something different?'' And we had our 
hearing last September, and then a roundtable following that, 
and the Chairman is going to continue this, I know, and work 
with us on trying to find out what works. And let us quit doing 
the same thing. Let us do something different.
    Lastly, and basically I want to ask you guys, on the 
Appeals Modernization Act. I guess our office is probably the 
most common thing we deal with are appeals that are backlogged. 
How do you guys see the new AMA program working? And it just 
went live last week for everybody, and which--how do you advise 
a--one of your members which lane to get into?
    Mr. Reistad. Well, thank you for your question, 
Congressman, and I would ask our Chairman, Ralph Bozella, of 
Veterans Affairs and Rehabilitation to respond to your question 
please.
    Mr. Roe. Thank you.
    Mr. Bozella. Thank you, Commander. Thank you, Dr. Roe. Of 
course, the American Legion worked with Congress, with VA, with 
the Board of Veterans Appeals to design and develop that 
legislation. It was signed by the President on our stage at our 
national convention in 2017, and we believe it will work.
    And the key to that is training--training our service 
officers how to do this in the best way, how to give that 
advice to that veteran, making that choice of the higher 
review, the supplemental claim, or going directly to the Board 
of Veterans Appeals. And that is where we are going to focus 
our efforts. There is not a simple answer for everybody. It is 
up to that veteran to make that choice, based on the 
information that we can provide them.
    Dr. Roe. Thank you. I yield back. Thank you, Mr. Bozella.
    Chairman Takano. Thank you. Chairman Roe yields-- Ranking 
Member Roe yields back. I would like to now recognize the 
gentleman from Connecticut, former Marine veteran, Senator 
Blumenthal, for five minutes.

                   SENATOR RICHARD BLUMENTAL

    Mr. Blumenthal. Thank you, Mr. Chairman, and thank you to 
you and members of the House Committee for being here today. We 
appreciate your coming over to the Senate side, whether it is 
the left or the right part of the dais and podium. And thank 
you, Commander, for you and your team being here and your 
leadership day in and day out. I know from my experience in 
Connecticut, as a proud member of the Legion, that you are 
involved in so many community activities, and particularly the 
Boys State activities where two of my sons--three of my sons 
have participated, I believe, two of them now veterans 
themselves. And they better be members of the American Legion, 
as a matter of fact, if they know what is good for them.
    I want to thank Tom Flowers--I think he is here today-- the 
commander of the Connecticut department. Thank you very much, 
and everyone from Connecticut who is here. This is a great day 
for you to be here, when we are introducing legislation in 
honor of your being here, the Reach Every Veteran in Crisis 
Act, which I am helping to lead along with my colleagues, 
Senators Boozman, Sullivan, Hirono, and Brown--you heard 
Senator Hirono talk about it--because the VA has failed in 
reaching out to veterans who are at risk of suicide, spending 
only a tiny fraction of the money appropriated by the United 
States Congress for them to do their job.
    There has not been a lot of talk this morning about the 
Blue Water Navy Act. We came literally within a hair in the 
Senate. One or two members blocked unanimous consent from our 
proceeding with the House bill. Thanks to the House, which was, 
I think, near unanimous in supporting it. Unfortunately, here 
in the Senate we dropped the ball. And again, coming to the VA, 
I must say we all regret that Secretary Wilkie has been 
equivocal. Members of his team have been less than forthcoming 
in their support. I think that is an understatement. I am here 
to ask for your continued support in passing the Blue Water 
Navy Bill.
    [Applause.]
    Mr. Reistad. Thank you, Senator. We absolutely are in 
support of that, and let me take a moment of personal 
privilege. My Legion cover may say Virginia but I entered the 
United States Army out of New Haven, Connecticut.
    Mr. Blumenthal. Thank you for your service, and thank you 
for that Connecticut connection. We are proud of it. Thank you.
    The Agent Orange Exposure Fairness Act. I am the co- 
sponsor of the measure that Senator Moran mentioned earlier, 
because our battlefields are so rife with toxics and poisonous 
substances, whether it is burn pits or the nerve gas that are 
found literally on today's battlefield in Iraq, Afghanistan, 
and Syria, where our men and women are exposed to those risks.
    The Agent Orange Exposure Fairness Act looks to the time 
that is necessary for diseases to manifest themselves. One of 
our fellow American Legion members, Gerry Wright, has 
championed this step. He was my guest at the State of the 
Union. We spoke to a lot of my colleague about the need for the 
Agent Orange Exposure Fairness Act, not only for the Vietnam 
veterans but also for veterans elsewhere in the world--the 
Korean DMZ, for example, where they have been similarly exposed 
to Agent Orange, which is a pesticide. It is a toxic chemical 
that has caused illnesses that we have not properly accounted 
for, and I hope for your support of that measure as well.
    Mr. Reistad. Senator, I believe we approved a resolution 
for that at our last national convention. Mr. Wright has been 
in continual contact with me about that, and I know he has been 
traveling around the country asking for support of that 
legislation and doing a dynamite job at it. So you have our 
support.
    Mr. Blumenthal. He has been tireless. As you know, he 
traveled across the country on his motorcycle with the insignia 
"Sprayed and Betrayed," which is a powerful way to put the 
betrayal of trust by the VA in those veterans who suffer from 
those diseases, as he does. And he is a real champion and I 
know he has been in touch with you, probably quite frequently. 
He is a great advocate.
    And again, I just want to finish by thanking all of your 
team. They do just a remarkable job here in the Nation's 
Capital and all around the country. Thank you so much.
    Mr. Reistad. Thank you.
    Chairman Takano. The Senator yields back. I want to now 
recognize the gentleman from Texas, a new member of Congress, 
Mr. Allred, for five minutes.

                  REPRESENTATIVES COLIN ALLRED

    Mr. Allred. Thank you, Mr. Chairman, and if there are any 
Texans who have hung in there I would love it if you could 
raise our hand or stand up. Just let me see you up there. Thank 
you so much to the Texans for your incredible service. I am 
incredibly honored to be representing Dallas. Commander 
Reistad, thank you so much for being here today and to your 
incredible staff.
    I understand that I owe you a happy birthday coming up 
here, nearly 100 years of incredible service to our nation's 
combat veterans, and to really all of our veterans. And so on 
behalf of the 34,000 veterans in my district, and really, all 
of the people who live in my district, I want to thank you and 
everybody at the Legion for all of your incredible service to 
our country.
    Mr. Reistad. Thank you.
    Mr. Allred. I had the honor of being an appointee in the 
Obama administration at the Department of Housing and Urban 
Development before I sought this office, and we placed a large 
focus on combating and ending veterans' homelessness, through 
the HUD and VA supportive housing program. And I was concerned 
to see, in 2017, a rise in veterans' homelessness. I am happy 
to see that there was a slight reversal of that in 2018.
    And I would like to just ask you where we stand how HUD and 
the VA are working together with you and with other VSOs to 
combat veterans' homelessness, moving forward.
    Mr. Reistad. I would like to ask our legislative director, 
Matt Shuman, to elaborate, please.
    Mr. Shuman. Thank you for the question, Congressman. Making 
sure that there is not one homeless veteran on the street is 
absolutely the critical mission, one of the critical missions 
of the American Legion. The point in time, in December, just a 
few months ago, roughly we had about 30,000 veterans at any 
given point who were homeless, and I think we have already said 
this, that is too many.
    The HUD-VASH program and the SSVF programs really need to 
be made permanent. We need the staff that run those programs, 
do not need to be worrying about if they are going to have a 
job in six months. If they are worrying about themselves, how 
are they worrying about providing quality services and 
wraparound services to veterans?
    Further, it is not just about giving a homeless veteran 
home. We can give them the biggest mansion in America. Unless 
we also provide those wraparound services, from health care to 
job placement and mental health, they are going to end up back 
on the street. So we really need to take care of those 
veterans.
    Mr. Allred. Thank you, Mr. Shuman. I completely agree with 
you and I think that your recommendation is right on. It is 
hard for us to plan long-term around a temporary program, and 
also, homelessness often has so many factors that go into it 
and providing a home is only one step in combating that. So 
thank you for that. We will certainly be working towards that.
    Chairman Bozella, I wanted to thank you for mentioning some 
of the creative therapies that are out there for veterans. We 
have a great organization in Dallas called Equest that does 
great work with our veterans through equine therapy, which you 
mentioned specifically. And I am deeply concerned, as many of 
the members who have spoken here today are, about suicide 
prevention and what we can do to use creative methods to 
provide our veterans with the care that they need.
    And when I visited with the VA in Dallas, which is the 
second-largest VA in the country, they expressed interest in 
having some help in working with some of the outside groups to 
kind of better form other forms of therapies and to use some of 
the resources that are at their disposal in a more efficient 
way. What can we do, in Congress, to help those organizations, 
work with our VA to make sure that all of the resources that we 
have out there--and there are a number of great groups out 
there that are doing this kind of work-- that they are actually 
at the fingertips of the VA?
    Mr. Reistad. Chairman Bozella.
    Mr. Bozella. Thank you, Commander. Thank you, Congressman 
Allred. The number one thing that needs to happen is for VA to 
believe that alternative therapies are, in fact, viable, that 
they do work for people. One of the things that they do is they 
help veterans stay in the evidence-based therapies, the 
cognitive-based therapies, the prolonged exposure. Some of that 
therapy can be very difficult for people, and I am sure Dr. Roe 
would understand that, how tough it is to relive a traumatic 
experience.
    And sometimes they want to leave, and the CAM, we call it, 
complementary and alternative medicines, keeps them engaged. It 
does give them a sense of belonging and a sense of purpose. The 
equine stuff I think you are referring, it is almost magical 
what happens when veterans are teamed up with a horse and they 
have to care for that horse. That is a sense of purpose. That 
is a sense of belonging, having to care for another being. And 
those kind of things work tremendously.
    So I think VA, they--and, by the way, they are coming 
around to this stuff now, and it has taken a while but they are 
getting there. I am glad to hear Dallas is interested. You can 
talk to the American Legions, the VFWs in your areas. You can 
get that kind of support from VSOs, and I am sure they will be 
there for you.
    Mr. Allred. We will do that. My time has expired but I just 
wanted to again thank all of you for being here. Thank you for 
your service to our country, and thank you so much for helping 
us understand things that we need to be working on to make sure 
that we keep our commitment to our veterans.
    Chairman Takano. The gentleman yields back. I would now 
like to recognize myself for five minutes and just ask a few 
questions.
    Commander, the 2017 Government Accountability Office report 
found that VA faces significant challenges in recruiting and 
retaining employees. As we have said earlier, as was said 
earlier in the hearing, over 10 percent of full-time authorized 
and budgeted positions, funded positions, amounts to about 
45,000 vacancies, and most of these being health care 
providers.
    Does the Legion have some specific recommendations about 
how VA can attract high-quality applicants and recommendations 
on how to reduce the long and cumbersome hiring and onboarding 
process at VA?
    Mr. Reistad. Absolutely. Absolutely we do, Mr. Chairman, 
and I would like to ask Chairman Bozella to please address that 
question.
    Mr. Bozella. Thank you, Commander. Representative Chairman 
Takano, that is one of the--the number one causes we see for 
the number of vacancies there are in VA health care is the 
onboarding process. Yeah, there is a gap with money, certainly, 
but the process, it takes three months or longer to recruit, to 
interview, to do paperwork, to actually bring that person on 
board is a very difficult process.
    I believe that Senator Cory Gardner from Colorado would 
like to introduce legislation that is calling for a pilot 
program in at least 10 VA sites to reduce the onboarding 
process. That would make a difference.
    Chairman Takano. So it is not my imagination. It is not--
you are verifying or validating some of the anecdotal stories I 
am hearing about internists or specialists saying they have not 
even received an acknowledgment they have applied to the VA, 
and that these are people that want to work for the VA and are 
highly employable, but the VA's lengthy process of hiring has, 
you know, forced these individuals to just take other 
employment before they accept employment or even get 
interviewed at the VA.
    Mr. Bozella. If I may, Commander--
    Mr. Reistad. You may.
    Mr. Bozella. --Mr. Chairman, if you think about some of the 
really competitive health care environments in certain cities--
the Bay Area, Chanin and I were there just a few weeks ago, and 
New York City, Denver, places that are growing like that. And 
you have a competitive health care environment and people are 
coming there applying for jobs, and if it takes three to four 
month to get hired with the VA for less money, or if they can 
get hired at a private hospital much sooner, at more money, 
which way do you think they would go?
    Chairman Takano. Yeah. Well, one other question related to 
this. Senator Sanders and I, in the Choice Act, we were able 
to, along with other members and also the help of the 
Republican--my Republican colleagues, we inserted about 1,500 
medical residencies into that bill, newly funded medical 
residencies across the country. Do you believe that the overall 
physician shortage is contributing to our difficulties in 
hiring and retaining?
    Mr. Bozella. Thank you, Commander. Mr. Chairman, yes, the 
overall physician shortages, especially in rural areas, 
absolutely does contribute to this particular problem.
    Chairman Takano. Great. Well, I am going to yield-- cut my 
questions short. I want to give now Ranking Member Roe his 
opportunity to give his closing statement.
    Dr. Roe. Thank you, Mr. Chairman. A couple of things on 
alternative therapy, Mr. Bozella. I asked some wounded 
warriors, would they like to fish. And so the people that were 
doing that, they said, "Yeah, but are they going to catch any 
fish?" I said, "I can guarantee you they will. I have a fish 
hatchery in my district, so we have worked that out pretty 
well." They caught a lot of fish.
    And back to hiring, as the Chairman is speaking of, he is 
absolutely right. Look, I can hire someone in my practice 
before VA can lick a stamp. They have got to get their act 
together on hiring people quicker, these qualified people, and 
especially on medical professionals--nurses, PAs, all of that. 
You are 100 percent correct on that.
    Thank you, and as we finish today I want to thank all the 
Legion members who have taken their time away from their 
families to come here today to be with us. I want to thank you 
for that.
    I would like to bring something to your attention, 
Commander, and the folks in the room, and ask for your help. 
And I know the VA--the Legion is an ardent supporter of all 
constitutional rights.
    Yesterday, we in the House voted on a rule that would 
permit limited debate on legislation that would impact 
veterans' Second Amendment rights. This bill, H.R. 1112 will be 
considered in the House later today, this afternoon, a bill 
that unfortunately has had very little debate, minimal 
committee process. A little-known and poorly understood 
provision of this bill would amend the law to read as follows: 
"It shall be unlawful to sell any firearm or ammunition to any 
person knowing or having reasonable cause to believe such 
person has been adjudicated with mental illness, severe 
developmental disabilities, or severe emotional instability."
    To put this in perspective, there are over 1.6 million 
disabled veterans with a service-connected adjudication by VA 
of mental illness, including nearly 1 million with PTSD. H.R. 
1112 has the potential to add all names of those veterans to 
the FBI's NICS list and prevent those veterans from being able 
to purchase or possess a firearm. I offered that amendment to 
clarify that veterans with VA mental illnesses and other 
affected adjudication to be exempt from the bill's standard, 
but that was ruled out of order.
    Many people do not realize that the VA already regularly 
sends the names of veterans who have a VA fiduciary for 
inclusion on the NICS list, not because there is a concern that 
the veteran might be a harm to themselves or others but because 
VA has determined that that veteran needs assistance in 
handling his or her financial benefits.
    I am concerned that the expanded definition proposed in 
H.R. 1112 would infringe on the Second Amendment rights of 
millions of veterans solely because they sought the benefits 
from VA that they have rightly earned to their service to our 
country and now have been adjudicated with a service- connected 
mental illness. But like those veterans with fiduciaries, even 
though there may not be--there may not have ever been a finding 
by judicial authority, a judge, that the veteran possesses a 
danger to themselves or society, these veterans would be told 
that they were good enough to use a firearm to fight for our 
freedoms but not good enough to bear arms as a civilian.
    The last thing I want to do is discourage veterans from 
seeking VA benefits because they are afraid it might cost a 
constitutional right if they receive a rating decision for a 
service-connected mental illness.
    And look, we need your help with this, just to slow this 
down and debate it, and everyone up here wants people who are 
mentally unstable not to have a firearm. There is not a person 
in this room that does not want that. But we do not want 
veterans who protect the rights of the Constitution to give up 
those rights.
    Please, I ask for your help just to slow this down. I do 
not think it was intended. I do not think that was an intention 
with this bill, but I think that certainly is going to be what 
happens.
    Again, Mr. Chairman, thank you. It is a privilege to serve 
with you on the Committee and I look forward to working in the 
next--this Congress to carry out all the things we talked 
about, and hopefully more, and with that I yield back my time.
    Chairman Takano. I thank the gentleman. I just want to 
address briefly the concerns raised by my friend and colleague, 
Phil Roe, about the bill that he mentioned. That bill will not 
come up for a vote today. It will come up for a vote tomorrow, 
scheduled for tomorrow.
    I want to say that the concern arises out of, actually, 
language that was meant to replace a more offensive, current 
language, language in the current law, which refers to people 
who are mentally defective. That is obviously outdated, 
offensive language, and the Judiciary Committee looked for--
struggled to find language that would replace the current 
language of "mentally defective." That is wrong, that is 
terrible language, and that is actually in the current law.
    The language that is currently in the bill is meant to be 
placeholder language. They are trying to find the right terms, 
so that what Dr. Roe talked about--and he actually said--he 
used the word "potentially," potentially. And we are talking 
here about getting the language right so that it cannot be 
interpreted in such a way that veterans who have financial 
difficulties are not put on the NICS list. We want to avoid 
that from happening. You know, people on my side of the aisle 
are interested and committed to protecting the Second Amendment 
rights, especially of our nation's veterans.
    And so the Chairman, Chairman Nadler, my understanding is 
that he is writing a letter assuring that any final language of 
the bill, before it is sent over to the Senate, is corrected, 
and he is committed to working with the veteran service 
organizations and getting this language correct.
    So stay tuned. We will be in communication. I have been--as 
soon as I heard Dr. Roe bring this concern to yesterday's joint 
hearing I immediately went into work, as the Chairman of the 
Veterans' Affairs Committee in the House, to work with the 
Democratic leadership to problem- solve this particular issue.
    But let me just say that I always, always enjoy these joint 
hearings and hearing the priorities of the American Legion. We 
will be meeting with the Secretary of the Veterans Affairs 
Department today, Secretary Wilkie. I will be pressing him on 
the question of will he be appealing the Blue Water Navy 
decision, and I will encourage him to desist from doing that. 
And regardless of his answers, we are going to move forward 
with the Blue Water Navy bill, as I have introduced it in this 
session of Congress, and we are going to pass that bill, and we 
are going to press the Senate to get it done, and we are going 
to get this issue off the table in the 116th Congress.
    [Applause.]
    And I want to acknowledge that Dr. Roe had taken this over 
the finish line in the House, and to clarify there was some 
doubt about whether the vote was unanimous. It was unanimous. 
Thank you, Phil Roe, for that unanimous vote in the last 
Congress, and we are going to get it done--we are going to get 
it done in the Senate, and what I need your help with is to 
make sure that no Senator stands in the way of Blue Water 
Navy--the Blue Water Navy bill solution. So thank you.
    Let me also say that I do appreciate the Legion's stance on 
the 30-minute access standard. I do think it still raises 
questions. It is potentially a good thing, also potentially 
something that could result in a diversion of precious health 
care dollars away from the existing internal capacity of the VA 
to serve veterans.
    It is potential. It is all a matter of how this 
administration, you know, rolls out and implements the Mission 
Act. And, of course, we will be working very closely with the 
VA--with the American Legion, to make sure that the rollout of 
the Mission Act and its implementation is done in such a way 
that we build capacity, internal capacity, and we are flexible 
enough to reach the veterans where they are and to make sure 
they get health care that is second to none.
    We will also be doing our level best to make sure that the 
Forever GI Bill is implemented, and I certainly do appreciate 
the American Legion stance on closing the 90/10 loophole. That 
will do much to protect our student veterans and to ensure that 
they are on their way to success in our economy and the job 
market.
    And with that----
    Dr. Roe. Mr. Chairman, may I be recognized for just one 
minute?
    Chairman Takano. I will yield for--
    Dr. Roe. Thank you. Just to clarify a few points on this 
1112, I am not trying to engage in fear-mongering but I am 
concerned where H.R. 1112 may take us. It is my belief that the 
Judiciary Committee did not mean to have this negative impact 
on veterans. However, I do think that the process of 1112 has 
been rushed and that is an unintended consequence. 
Additionally, we cannot ignore the very real implications for 
our veterans, even if that is not the intent of the bill. It 
can happen.
    I am also not saying that a simple diagnosis of a mental 
health condition alone would amount to a veteran's name being 
sent to the NICS list. On that, I think that the NICS 
Improvement Act of 2007 is fairly clear. But right now, via 
adjudications that certain veterans require a fiduciary to 
handle their financial benefits are deemed to meet adjudication 
as a mental defect, requirement under Title 18, and those 
veterans are placed on the NICS list.
    The process itself would not change as a result of H.R. 
1112, only the definition. Under current law, quote, mental 
defective definition is already binding on VA and based on 
current law, VA regularly sends veterans' names to the FBI. And 
again, under H.R. 1112, nothing about that process would 
change, but the definition of who should be added to the NICS 
list would be significantly expanded.
    That is why I think it is a very real possibility that VA 
ratings decisions that award service connection for PTSD or 
other mental illnesses, just like current VA adjudications that 
a veteran requires a fiduciary would cause our nation's brave 
men and women who serve to lose their constitutional rights to 
bear arms.
    And to be clear, I am not saying that no veteran should not 
be placed on this NICS list. We all know that is true. But I do 
believe that we must tread very carefully and ensure that 
proper due process is given and that a judicial authority, not 
a VA rater or a bureaucrat, should be the one who decides 
whether or not a veteran is a harm to themselves or others 
before we look at infringing on their constitutional rights. It 
is a slippery slope we are on.
    Chairman Takano, I appreciate your indulgence. You have 
been very good about this, and I yield back my time.
    Chairman Takano. Well, I do believe in a robust and 
thorough and complete discussion of the issues of the day, 
including--and especially including the fundamental issues of 
our constitutional rights and of the Second Amendment.
    But let me just say that 90 percent of Americans--90 
percent of Americans, including overwhelming majorities of 
those who belong to the National Rifle Association, believe 
that background checks are reasonable, and in order to make 
those background checks effective we need to have, you know, 
the NICS list also complete.
    And that being said, we are working--I think working with 
VSOs like the American Legion. The Chairman and the parties can 
get this language correct. We are talking about trying to 
replace outmoded, offensive language that already exists in 
law, and to find that sweet spot in a law that makes the NICS 
list complete but also does not unfairly--unfairly and unjustly 
put our nation's veterans on those lists.
    So with that I would like to call--to adjourn these 
proceedings, and thank you, the American Legion, for another 
great year of testimony.
    Mr. Reistad. Thank you, Mr. Chairman.
    [Applause.]
    [Whereupon, at 12:36 p.m., the Joint Committees were 
adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               



      

                                  <all>
</pre></body></html>
